<html>
<title> - ASSESSING SEPTEMBER 11TH HEALTH EFFECTS: WHAT SHOULD BE DONE?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





     ASSESSING SEPTEMBER 11TH HEALTH EFFECTS: WHAT SHOULD BE DONE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2003

                               __________

                           Serial No. 108-124

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-728              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
WILLIAM J. JANKLOW, South Dakota     CHRIS BELL, Texas
                                     JOHN F. TIERNEY, Massachusetts

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Kristine McElroy, Professional Staff Member
                        Robert A. Briggs, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2003.................................     1
Statement of:
    Gilman, Dr. Paul, Assistant Administrator for Research and 
      Development, Environmental Protection Agency; Diane Porter, 
      Deputy Director, National Institute for Occupational Safety 
      and Health [NIOSH], accompanied by Dr. Gregory Wagner, 
      Director of the Division of Respiratory Disease Studies, 
      National Institute for Occupational Safety and Health; Pat 
      Clark, area office director for New York, New York 
      Occupational Safety and Health Administration, accompanied 
      by Dr. David Williamson, Ph.D, Agency for Toxic Substances 
      Disease Registry...........................................   103
    Herbert, Dr. Robin, co-director of the World Trade Center 
      Worker and Volunteer Medical Screening Program, medical co-
      director of Mount Sinai; Dr. Stephen Levin, co-director of 
      the World Trade Center Worker and Volunteer Medical 
      Screening Program; Commissioner Thomas Frieden, a doctor at 
      New York Department of Health and Mental Hygiene; Dr. 
      Michael Weiden, medical officer, New York Fire Department; 
      Phil McArdle, health and safety officer, Uniformed 
      Firefighters Association; Jimmy Willis, vice chair for 
      conductors, assistant to the president, Transportation 
      Workers Union; John Graham, health and safety instructor, 
      Carpenters Union; and David Rapp, former worker at the 
      World Trade Center site....................................    22
Letters, statements, etc., submitted for the record by:
    Clark, Pat, area office director for New York, New York 
      Occupational Safety and Health Administration, prepared 
      statement of...............................................   140
    Frieden, Commissioner Thomas, a doctor at New York Department 
      of Health and Mental Hygiene, prepared statement of........    37
    Gilman, Dr. Paul, Assistant Administrator for Research and 
      Development, Environmental Protection Agency, prepared 
      statement of...............................................   124
    Graham, John, health and safety instructor, Carpenters Union, 
      prepared statement of......................................    69
    Herbert, Dr. Robin, co-director of the World Trade Center 
      Worker and Volunteer Medical Screening Program, medical co-
      director of Mount Sinai, prepared statement of.............    25
    McArdle, Phil, health and safety officer, Uniformed 
      Firefighters Association, prepared statement of............    57
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Article dated October 28, 2003...........................     7
        Prepared statement of....................................    10
    Owens, Hon. Major R., a Representative in Congress from the 
      State of New York, prepared statement of Ms. Mount.........   100
    Porter, Diane, Deputy Director, National Institute for 
      Occupational Safety and Health [NIOSH], prepared statement 
      of.........................................................   107
    Rapp, David, former worker at the World Trade Center site, 
      prepared statement of......................................    74
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, article dated August 23, 2002...........    14
    Weiden, Dr. Michael, medical officer, New York Fire 
      Department, prepared statement of..........................    46
    Willis, Jimmy, vice chair for conductors, assistant to the 
      president, Transportation Workers Union, prepared statement 
      of.........................................................    64

 
     ASSESSING SEPTEMBER 11TH HEALTH EFFECTS: WHAT SHOULD BE DONE?

                              ----------                              


                       TUESDAY, OCTOBER 28, 2003

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                      New York, NY.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
the Goldwurm Auditorium of the Mount Sinai Medical Center, 1st 
Floor, 1425 Madison Avenue, New York, NY, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Turner, and Maloney.
    Staff present: Lawrence Halloran, staff director and 
counsel; Kristine McElroy, professional staff member; Robert 
Briggs, clerk; and David Rapallo, minority counsel.
    Mr. Shays. I'd like to welcome our witnesses and our guests 
to this congressional hearing. And to say that this is an 
important day and we are looking forward to the testimony from 
our witnesses.
    A quorum being present, the Subcommittee on National 
Security, Emerging Threats and International Relations Hearing 
entitled, ``Assessing September 11th Health Effects: What 
Should be Done?'' is called to order.
    Congresswoman Carolyn Maloney invited the National Security 
Subcommittee to New York City today because she understands the 
threat posed to the health and welfare of all Americans by 
terrorism and its lingering aftermath. She has been a 
thoughtful, hardworking partner in our bipartisan oversight of 
terrorism issues, and we are grateful for the opportunity to be 
here.
    In place of the fallen towers of the World Trade Center, 
these two hard realities cast long shadows over our discussion 
today. Many first responders are the second wave of victims in 
a terrorist incident. And public health and disability 
compensation systems are not fully prepared to acknowledge the 
unique wounds inflicted by this all too modern war. 
Firefighters, police, emergency medical personnel, transit 
workers, construction crews and other first responders came to 
Ground Zero knowing there would be risks, but confident they're 
equipment, training and community would sustain them. But, as 
we will hear today, better equipment and training standards are 
needed to match the first responder mission to the new threats 
posed by catastrophic terrorism. And the dissident patchwork of 
Federal, State and local health support is, in many cases, not 
providing the care and comfort they rightfully expect.
    After the 1991 war in the Persian Gulf, veterans suffered a 
variety of unfamiliar syndromes, faced daunting official 
resistance to evidence linking multiple low level toxic 
exposures to subsequent chronic ill health. In part, due to the 
work by this subcommittee, long term health registries were 
improved, an aggressive research agenda pursued and sick 
veterans now have the benefit in law of a rebuttable 
presumption that wartime exposures cause certain illnesses.
    When the front line is not Baghdad but Broadway, 
occupational medicine and public health practitioners may have 
much to learn from that distant Middle East battlefield. Proper 
diagnoses, effective treatment and fair compensation for the 
delayed causalities of a toxic attack require vigilance, 
patience and a willingness to admit what we do not know and 
might never know about toxic synergies and syndromes.
    Health surveillance has to be focused and sustained. New 
treatment approaches have to be tried now in time to restore 
damaged lives. In this effort to heal the wounds of September 
11, 2001 and strengthened public health capacity against future 
attacks, the Federal Government has a central role to play. The 
Center for Disease Control and Prevention [CDC], and its 
National Institute of Occupational Health are charged to 
develop and implement health protocols against new workplace 
dangers like Anthrax and novel particulates from the fiery 
destruction of a building.
    On our second panel of witnesses today we will hear about 
the work and other Federal public health agencies in treating 
the walking wounded of September 11th. But before we will hear 
from first responders and local officials on the near and long 
term health effects of the World Trade Center attack.
    We appreciate our Federal witnesses foregoing the usual 
protocol of going first so that they could listen and respond 
to all the testimony today.
    All our witnesses bring impressive expertise and 
unquestionable dedication to our discussion. We are grateful 
they could join us. We look forward to a constructive dialog on 
how to mend the wounds of this and other terrorist attacks.
    At this time the Chair would recognize the very gentle, as 
they say in terms, and very knowledgeable Mrs. Maloney.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.001
    
    [GRAPHIC] [TIFF OMITTED] T2728.002
    
    Mrs. Maloney. First of all, Chairman Shays, I want to thank 
you very, very much for coming to my district to hold this 
hearing. But I also would like to focus and comment on your 
long term commitment to issues of public health, including your 
outstanding and aggressive oversight of the response of the 
Federal Government to the Gulf war syndrome. In fact, many 
people say that the September 11 health concerns are similar to 
the Gulf war syndrome and that Washington is not really 
reacting to what is a major health crises in an appropriate 
way.
    The primary question before us today is everything being 
done that could be done to help those workers and victims at 
September 11. And that is why I asked Chairman Shays to have 
this hearing.
    And I regretfully expect that we will hear today that the 
answer is no. I have read in some testimony that over 1,800 of 
the firefighters have had to take early retirement because of 
health concerns. I have read the testimony of transit workers 
who called the air at Ground Zero ``toxic soup'' filled with 
asbestos and pulverized glass and concrete, and that fully half 
of their workers are sick.
    And fully one-third, I am told by Dr. Levin and others at 
Mt Sinai are still experiencing long term related health 
problems. And, regrettably, Dr. Levin has told me that 40 
percent of the people they have screened so far do not have 
health coverage.
    There is substantial evidence of high levels of upper 
airway and lung problems, respiratory, digestive conditions, 
psychological trauma problems. And there are certainly more 
injured that are waiting in line to be documented. But there 
still seems to be no coordinated response from Washington.
    Anyone looking at thousands sickened by one event would 
think that it would be treated as a health emergency of the 
highest order. But it does not seem that there has been any 
sense of urgency from the Federal Government.
    I hope that this hearing will help sort all of this out. 
And I know that many of the panelists and my colleagues, I 
thank them for being here, have a lot of questions.
    First, what is being done to actually assist the injured 
medically? That is what I would like to hear from the panel.
    Is there a coordinated assistance for those that need help; 
volunteers, construction workers, residents, first responders 
who have injured and have not been able to work since their 
time at Ground Zero, many of whom have list their health 
insurance because they are no longer able to work?
    Do those who were insured know that many can apply? Many of 
the injured can apply. And I want to make sure that they know 
that they can apply to the Victims Fund. And do they know that 
they must apply before the December 31st deadline of this year 
for assistance?
    What is happening with processing of worker's compensation 
claims? I hear reports that is mired in difficulty.
    And most importantly, are those injured receiving the 
proper care?
    Why has there been such reluctance on the part of the 
Federal Government to provide sufficient funds for monitoring 
and why have the funds been so slow in getting dispersed?
    It took over a year to get the leadership in Congress to 
support the $90 million for the medical screening of World 
Trade Center workers. Federal resources for the monitoring 
program, even 8 months after they were appropriated, have still 
not been dispersed and apparently will not be dispersed until 
May 2004 at the earliest. Why is this happening? This is wrong. 
We should figure out to move the system forward.
    And I hope that NIOSH will explain why they are proposing 
to change the system, and at the very least their changes 
should not in anyway disturb the monitoring the program that is 
already in place and not have gaps in that monitoring programs.
    And are there sufficient funds in place to properly provide 
the long term monitoring that is needed? We have never had a 
situation in history where pulverized toxic air has been 
exposed to people. And we need a long term commitment to 
monitor these health risks so that we can possibly plan in the 
future for better preventive equipment to protect people at 
disaster areas.
    And why are the representatives of the workers so directly 
impacted by health concerns so unhappy with the work of the 
city on the health registry?
    And why are there still privacy concerns about the health 
registry survey?
    Why did the registry not work out a protocol for providing 
information and referral for those injured who seek help? I had 
my staff call the registry and they didn't refer them to any 
other screening or to any health treatment. And why, after 2 
years of planning, cannot the city of New York, the great city 
of New York do a better job with this health registry?
    In light of the revelations about the EPA's public 
announcements on the safety of the air after the disaster, the 
immense difficulty the New York City House members in a 
bipartisan way along with our Senators had in convincing 
Washington to support funding, we have to ask why is not 
Washington focusing on these issues. And I would like 
permission to place in the record an article that was in the 
Daily News today that talks about memos from top scientists 
that were released to the city about the health crises in the 
air and the lack of information and support that got out to the 
workers. They were not informed. I request permission to put 
this article in the record.
    Mr. Shays. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.003
    
    [GRAPHIC] [TIFF OMITTED] T2728.004
    
    Mrs. Maloney. I am in the process of developing legislation 
which I hope will be a bipartisan effort which will focus on 
many of the issues that we are talking about today.
    First, the legislation would make sure that everyone who 
was injured from their time at Ground Zero, the volunteers, the 
bucket brigade, the firefighters, fire officers, iron workers, 
construction workers; all of those that do not have health 
coverage, that they get health coverage that covers their 
health concerns because they risked their lives to save other 
people.
    And I ask a final question: How in the world are other 
first responders going to respond to disasters if they see that 
the first responders who rushed to September 11 are not, at the 
very minimum, given health care and health screening and health 
monitoring for their health concerns because of their selfless 
act to rush and save the lives and work to reconstruct our 
city?
    I would like to place in the record the draft of the 
legislation. It also calls for the monitoring to continue for 
20 years and for research to look into what this means, this 
new type of toxic air that Americans or no one on Earth has 
ever experienced before on their long term health needs. And it 
tries to facilitate a better coordination and oversight.
    Coming here today I saw a bumper sticker that said 
``Remember 9/11.'' You see them everywhere. ``Remember 9/11.'' 
But I hope that today with this focus that Washington will also 
remember, the city will remember and we will get the proper 
care to the workers. And I hope that this is the beginning of a 
new and urgently needed focus on the health impact of September 
11.
    And I strongly commend the work of the chairman on the Gulf 
war syndrome, and for his attention and for being here today.
    Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T2728.005

[GRAPHIC] [TIFF OMITTED] T2728.006

    Mr. Shays. I thank the gentle lady.
    And at this time the Chair would recognize the vice 
chairman of the subcommittee, Mr. Turner, and thank him for 
being here given he has constituent issues in his home State of 
Ohio. And I thank you for being here. Thank you.
    Mr. Turner. I want to thank our chairman, Chris Shays and 
Mrs. Maloney, for having this hearing and for focusing on these 
important issues. Mrs. Maloney, thank you for having us in your 
district.
    Our chairman, Chris Shays, has been a leader in the issues 
of looking at terrorism and our preparedness both on the local 
and Federal level and our responsiveness to the issue of how do 
we prevent terrorist attacks, how do we prepare for them and 
how to respond. Even prior to September 11th our chairman had 
made certain that this committee looked at ways that 
information could be disseminated to communities and throughout 
the Federal Government in assisting us in our preparedness for 
terrorist attacks.
    I am the only Representative who is here who is not from 
the larger New York metropolitan area, but I can assure you 
that this is a national issue. It is a national issue not only 
because September 11th was a national tragedy, but because the 
preparedness, the information that we learn from this 
experience is important to all of us in our country as we look 
to lessons learned and how we can prepare in the future.
    Also for my community, Dayton, OH, I served as mayor for 
Dayton during September 11, 2001, and even our community sent 
EMS, fire and EMS responders as part of the recovery operation 
in response to New York's broader request that States 
throughout the region send responders here. So I met our 
responders as they were returning from New York and spoke with 
them about what they saw and how their efforts here impacted 
their lives. And I'm very interested then in how the overall 
environmental impacts might effect the efforts of really what 
was the response from many States in helping New York.
    We do have a lot of real important work here to do today. 
One is the evaluation of current spending. There have been 
millions of dollars that have been spent and millions of 
dollars that have been allocated. Have they been allocated to 
the appropriate things? And what are the needs that we need to 
address?
    In looking at the needs, we are obviously going to be 
looking at the issue of the full impacts, not just those that 
are immediately obviously, but as we further study this and 
look to the impacts in this community.
    And then also the third would be on the issue of just 
lessons learned, and not only for processes but substantive, 
technical, scientific information that we have learned.
    I am very excited about participating in this and learning 
from all of the experts that you have assembled the information 
that we need as we look to proceed in the future. Thank you.
    Mr. Shays. Thank the gentleman.
    At this time the Chair would recognize Mr. Townes, not a 
member of the subcommittee, but a member of the full committee.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by thanking you and all my colleagues for 
holding this very important hearing. I appreciate that you are 
holding the hearing in the city that the most damage occurred, 
and that is a fact. The tragedy of September 11 was felt more 
by our city than any other place. We encountered the greatest 
physical destruction and we lost the most lives. And thousands 
of families still mourn the magnitude of this devastation, 
which was easily seen by the entire world.
    I have been, and remain concerned, about the lack of 
attention paid to those who live right outside of Manhattan. As 
someone who represents parts of Brooklyn, I am most concerned 
about my Brooklyn constituents. The research shows that my 
concerns should not be ignored.
    According to the Environmental and Occupational Health 
Sciences Institute of the University of Medicine and Dentistry 
in New Jersey, the intense heat of Ground Zero blew debris, 
gases and particles upwards creating a loft effect which may 
have caused these pollutants to drop on people living in 
Brooklyn.
    New York Newsday reported this finding in an article on 
September 11th of this year, however this evidence is not new. 
On August 23, 2002 Newsday reported that high resolution 
photographs shot on September 11 by satellites show clear 
images of toxic debris getting blown in a southeasterly 
direction from Ground Zero across the Brooklyn Bridge into 
several neighborhoods.
    I would like to submit this article, Mr. Chairman, for the 
record, Newsday of September 11th.
    Mr. Shays. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.007
    
    [GRAPHIC] [TIFF OMITTED] T2728.008
    
    [GRAPHIC] [TIFF OMITTED] T2728.009
    
    [GRAPHIC] [TIFF OMITTED] T2728.010
    
    Mr. Towns. This was also confirmed by an October 2002 
American Prospect article that said ``It is now clear, thanks 
to NASA photographs, that the black toxin of World Trade Center 
debris blew for more than 30 hours directly from Ground Zero to 
the East River, which separates Manhattan from Brooklyn and 
Queens.''
    Let me point out three Brooklyn hospitals reported 
increases in visits related to respiratory ailments.
    While I share several concerns with my colleagues about the 
health consequences stemming from the WTC disaster, I 
especially look forward to hearing from the witnesses on this 
issue.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    And again, I thank you for holding this hearing in the 
greatest city in the world.
    Thank you. I yield back.
    Mr. Shays. I think most people agree, it is the greatest 
city in the world. It is. And those of us who live near it, 
recognize that what happens to New York directly impacts us, 
and we care deeply about this greatest city in the world.
    Mr. Nadler, we are delighted to have you join us. Mr. 
Nadler is not a member of the Government Reform Committee. He 
is a very active member, particularly of the Judiciary 
Committee. And he is, I think, the Representative who 
represents the district, we are talking about directly Ground 
Zero. And at this time, Mr. Nadler, you have the floor.
    Mr. Nadler. Well, thank you very much, Mr. Chairman.
    Let me begin by thanking you for holding this hearing today 
regarding the health effects of the September 11th terrorist 
attack on those who live or work near Ground Zero, and 
particularly for allowing me to participate in this committee, 
though I am not a member of the committee.
    As the Member of Congress representing Ground Zero, I have 
heard from far too many constituents in the last 2 years who 
have health problems because of contaminants in World Trade 
Center dust that the EPA refuses to clean up or to acknowledge, 
despite the fact that OSHA considers the dust to be regulated 
asbestos containing material and expert scientists have 
measured air pollution levels worse than the Kuwaiti oil fires.
    Two years ago in the days following September 11, the EPA 
said the air in Manhattan was safe to breath, despite the fact 
that they had no scientific evidence to make such a claim when 
they made it, and they continued to make it even when they 
ample scientific evidence that it was not true.
    After hearing from many constituents who told me they were 
getting sick and that the EPA refused to help them with 
decontaminating their apartments, in January 2002 I asked the 
EPA's ombudsman to investigate EPA's inaction. After the EPA's 
ombudsman's office conducted two field hearings which elicited 
considerable information, the EPA showed its displeasure by 
dismantling the ombudsman's office.
    In April 2002, I published a white paper on EPA's 
malfeasance, and in June testified of that year before the 
Senate on the inadequacy of the EPA's indoor cleanup plan, 
which they announced a mere 8 months after September 11 in May 
2002.
    Two months ago the EPA's Inspector General released the 
report documenting what many thousands of New Yorkers already 
knew; that the EPA had given false assurances to the people of 
New York regarding the air we were breathing and that the EPA 
had refused, and to this day refuses to take responsibility to 
decontaminate indoor spaces such as apartments, offices and 
schools despite the fact that they are legally mandated to do 
so.
    We know that several hazardous substances were present in 
the World Trade Center dust and were released into the 
environment when the towers collapsed. Clearly, that presented 
a hazard for rescue workers on the pile, and one of the 
purposes of today's hearing is to investigate the Government 
response to the sickness and problems caused by those hazards, 
and what I would say is the clearly inadequate Government 
response. But those hazardous substances were also present in 
World Trade Center dust that was blasted, often with great 
force, into surrounding buildings and settled in homes, schools 
and work places. Although the EPA declared that the outdoor air 
was safe, and this declaration was premature, enough time has 
passed that it is probably true that the outdoor air is no 
longer a problem today. On the other hand, the problem of 
indoor environments and exposure to hazardous World Trade 
Center dust that settled inside buildings persists to this day. 
And we have every reason to believe that thousands of people 
are poisoned day-by-day indoors in work spaces, schools and 
homes, and will continue to be so until action is taken to 
thoroughly investigate and clean up these spaces.
    As OSHA's Secretary John Henshaw wrote on January 31, 2002, 
and I see in the packets that were presented here a copy of his 
letter was placed, ``In that the materials containing asbestos 
were used in the construction of the Twin Towers, the settled 
dust from their collapse must be presumed to contain asbestos'' 
and therefore OSHA Federal regulations apply to the removal of 
this material. Nonetheless, the Government told the public is 
was safe and advised average citizens to clean up World Trade 
Center dust with a wet mop and a wet rag, which was illegal 
advice if you assume that has asbestos in it, as well as 
recklessly dangerous advice.
    In May of last year, the EPA announced a limited indoor 
cleanup plan. This plan was a complete sham designed to deflect 
criticism of the agency, not to actually address the problem. 
And they practically admitted that by saying there is no 
problem, this is being done to allay public fears; translation 
for PR.
    As confirmed in the EPA IG report, the agency's indoor 
clean up program was wholly inadequate and did not meet even 
the minimum criteria for protecting human health established by 
law. And the EPA refused, despite repeated requests, to require 
that its contractors in the clean up, require that their 
workers wear protective equipment. So we can expect that many 
of the workers in the clean up program a few months now will 
come down with respiratory ailments.
    The Federal Government has never followed its legally 
mandated procedures to track the release of hazardous 
materials, characterize the site and clean up buildings 
contaminated in the terrorist attack. And in this morning's 
Juan Gonzalez' article, he quoted this expert at ATSDR as 
saying that one of the first things they must do is 
characterize the site, which they have never done.
    It has not done the proper comprehensive testing to 
determine who has been exposed, what they are exposed to and 
the full extent of why this contamination has spread. This is 
why Senator Clinton placed a hold on Governor Leavitt's 
nomination as EPA Administrator, and she should be applauded 
for getting this issue back on the national radar screen. But 
until the EPA agrees to fully do its job, the issue will not go 
away.
    This is a very real, serious and continuing health issue 
that must be addressed. I refer to many constituents who have 
World Trade Center debris in their homes and their work spaces 
and who are now sick.
    The title of this hearing is ``Assessing September 11th 
Health Effects: What Should Be Done?'' It is very obvious what 
should be done. All the workers on the piles should have 
physical examinations and their health care needs as a result 
of this catastrophe for the balance of their lives should be 
paid for the Federal Government. The Federal Government should 
carry out its mandated responsibility to clean up buildings 
contaminated in the terrorist attack. The EPA should adopt and 
implement the recommendations in the IG report, and the Federal 
Government should assume the responsibility of ensuring the 
proper treatment for those sickened by World Trade Center 
debris, particularly in cases where exposure was the result of 
government negligence and malfeasance.
    In conclusion, let me summarize by saying that I regard 
there are being three victim populations that should be looked 
at separately besides the people who were killed directly by 
the terrorist attack.
    One is those people who were exposed, who got an acute 
exposure by being caught in a toxic cloud. And we should 
monitor and help them with their health problems, but no one is 
at fault other than the terrorist.
    Second are those responders who worked on the pile for 30, 
40, 50 days without proper protective equipment, have gotten 
sick as a result. And after the first few days it was 
inexcusable that not everyone was wearing proper protective 
equipment. And, again, we have to examine all these people, we 
have to take care of their problems. But somebody should be 
held responsible for why proper protective measures were not 
taken.
    Third and finally, are the thousands of people who are 
today living and working in contaminated work spaces, 
contaminated schools which have not been inspected and have not 
been cleaned up and we can predict that 15 years from now many 
of them will come down with mesothelioma or asbestosis or lung 
cancer. We can also predict that we can greatly minimize that 
problem if we do this proper inspection and clean up now, which 
is why this is a current issue. It is not simply a question of 
dealing with past damages. We can still eliminate most of the 
health problems from those people if the EPA follows the 
inspections, properly looks at all the neighborhoods, not just 
below Canal Street but wherever that dust cloud went, inspects 
and cleans up.
    I thank you again, Mr. Chairman, for holding this hearing 
and I look forward to hearing the testimony of the witnesses 
today.
    Mr. Shays. Thank you. I thank the gentleman very much.
    I am just going to do a little housekeeping here and ask 
unanimous that all members of the subcommittee be permitted to 
place an opening statement in the record. And that the record 
remain open for 3 days for that purpose.
    Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. And 
without objection, so ordered.
    I ask even further unanimous consent that Representative 
Towns, a member of the Government Reform Committee and any 
other member of the Government Reform Committee who may show 
up, and Representative Jerry Nadler sit with this committee as 
a full participant. And without objection, so ordered.
    Before recognizing the witnesses, I want to say since this 
is the first hearing, this hearing will raise many questions, a 
number will not be answered today nor will we even seek to get 
some questions answered. We have heard very important 
statements from all the participants at this hearing. 
Ultimately, it would be the goal of this committee to have 
every one of those questions answered and every problem dealt 
with.
    At this hearing, and I want to say I am going to be pretty 
focused on this and pretty strict in adhering to it, at this 
hearing we are focused on the workers and first responders' 
health conditions, their diagnoses, their treatment, their 
compensation. This hearing does not focus on residents, it does 
not focus on other workers who may work there. It does not 
focus yet on the clean up of facilities there. And we will. We 
will focus on those issues and we will make sure that any 
Member who has raised his questions, gets answers to those 
questions.
    At this time, I would recognize our participants. We have 
our first panel.
    Dr. Robin Herbert, co-director of the World Trade Center 
Worker and Volunteer Medical Screening Program, Medical co-
director of Mount Sinai. And she is accompanied by Dr. Stephen 
Levin, co-director of the World Trade Center Worker and 
Volunteer Medical Screening Program.
    So Dr. Herbert will be giving the statement.
    We then have Commissioner Thomas Frieden, a doctor at New 
York Department of Health and Mental Hygiene. Dr. Michael 
Weiden, medical officer, New York Fire Department; Mr. Phil 
McArdle, health and safety officer, Uniformed Firefighters 
Association; Mr. Jimmy Willis, vice chair for conductors, 
assistant to the president, Transportation Workers Union; Mr. 
John Graham, health and safety instructor, Carpenters Union, 
and; Mr. David Rapp, former worker at the World Trade Center 
site.
    We don't usually have this many panelists. I have been 
liberal when we have a smaller panel of being able to go over 
the 5-minutes. I would really respectfully ask that you submit 
your statement in 5 minutes. And if you think you need to redo 
it a little bit, I can skip over you to give you a little time. 
But if you go 5+ minutes, maybe a little longer, but we would 
like you stay somewhere within that range.
    And so at that time I need to do one more. If you can all 
stand up in this cozy area we have, but I do need you to stand. 
I do need to swear you in.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all the witnesses have 
responded in the affirmative.
    We are going to start with you, Dr. Herbert, and we are 
just going to kind of go down the line here. And we will do a 
lot of good listening, that is why we are here.

STATEMENTS OF DR. ROBIN HERBERT, CO-DIRECTOR OF THE WORLD TRADE 
CENTER WORKER AND VOLUNTEER MEDICAL SCREENING PROGRAM, MEDICAL 
 CO-DIRECTOR OF MOUNT SINAI; DR. STEPHEN LEVIN, CO-DIRECTOR OF 
 THE WORLD TRADE CENTER WORKER AND VOLUNTEER MEDICAL SCREENING 
  PROGRAM; COMMISSIONER THOMAS FRIEDEN, A DOCTOR AT NEW YORK 
 DEPARTMENT OF HEALTH AND MENTAL HYGIENE; DR. MICHAEL WEIDEN, 
MEDICAL OFFICER, NEW YORK FIRE DEPARTMENT; PHIL McARDLE, HEALTH 
 AND SAFETY OFFICER, UNIFORMED FIREFIGHTERS ASSOCIATION; JIMMY 
WILLIS, VICE CHAIR FOR CONDUCTORS, ASSISTANT TO THE PRESIDENT, 
 TRANSPORTATION WORKERS UNION; JOHN GRAHAM, HEALTH AND SAFETY 
INSTRUCTOR, CARPENTERS UNION; AND DAVID RAPP, FORMER WORKER AT 
                  THE WORLD TRADE CENTER SITE

    Dr. Herbert. Thank you. Thank you for asking me to testify 
today.
    The September 11th terrorist attacks on the World Trade 
Center resulted in horrific loss of life. Amid the shock and 
grief we all experienced immediately after the attacks, some 
failed to recognize that the terrorists had also created one of 
the worst acute urban environmental disasters ever to occur in 
U.S. history.
    Soon after the attacks, various New York area health care 
providers, including ourselves, began seeing workers and others 
with serious health problems due to their World Trade Center 
exposures. Many of us participated in the working group 
assembled by NIOSH to develop common approaches to the 
diagnoses and treatment of World Trade Center related health 
problems.
    In June 2002, Mt Sinai received $11.8 million in Federal 
funding to establish the World Trade Center Worker and 
Volunteer Medical Screening Program. This funding enabled us to 
design and coordinate a consortium of health care centers in 
the New York metropolitan area, and nationally, to provide free 
medical screening examinations for World Trade Center 
responders who were involved in various rescue and recovery 
efforts.
    In January 2003, we released some preliminary findings from 
analysis of 250 of the first 500 people who had come through 
the program. We reported that 78 percent had at least one World 
Trade Center related pulmonary symptom while working or 
volunteering at the site, and 46 percent were still 
experiencing at least one pulmonary symptom in the month before 
the screening exam up to 10 months after September 11th. 
Eighty-eight percent had at least one World Trade Center 
related ear, nose or throat symptom while performing World 
Trade Center response work, and 52 percent were still 
experiencing at least one ear, nose and throat symptom in the 
month before the screening examination.
    Finally, 52 percent reported mental health symptoms 
requiring further evaluation when they came for screening.
    We have now seen over 8,000 men and women in our screening 
program and we now know that a substantial number of World 
Trade Center responders have developed upper and lower 
respiratory problems that are lasting as long as 2 years. 
However we do not know what the long term effects of the World 
Trade Center exposures will be, and in particular we are 
concerned about cancers.
    Because of the high prevalence of persistent World Trade 
Center related health problems we were seeing, as well as the 
worry about what the long term consequences might be, it became 
clear that there was a need for both long term medical 
monitoring of responders as well as a need for medical 
treatment for those who have developed World Trade Center 
illnesses. For these reasons we joined with fellow occupational 
health experts, labor leaders and concerned Federal legislators 
in an intensive year long lobby for Federal resources for long 
term medical monitoring.
    Last February it was announced that this money had been 
appropriated. Although we still await the final award of the 
funding, we join with thousands of ill and injured workers and 
volunteers in our appreciation of your efforts to secure those 
resources. Of the $90 million allocated in the early winter of 
2003, $4 million has been provided to allow us to expand the 
baseline medical screening program so that 3,000 additional 
workers and volunteers will receive free comprehensive medical 
screening examines.
    Another $25 million is allocated specifically for 
examinations of New York City firefighters. And the remaining 
funding, approximately $56 million, will be used to establish, 
coordinate and conduct a program for long term medical 
monitoring of World Trade Center responders. However, these 
funds are unfortunately insufficient to provide periodic 
medical examinations of World Trade Center responders for the 
20 years that we would advocate.
    We estimate that the current funding will support a program 
to conduct screening examinations of 12,000 responders every 
year and a half for 5 years only. However, we would recommend 
screening for a minimum of 20 years because the World Trade 
Center responders sustained exposures without precedent. These 
exposures may cause new, unexpected health consequences, 
including possibly cancers, which would be unlikely to show up 
for at least 15 years after the time of exposure. This means 
that the screening program as currently funded will not last 
long enough to ensure that diseases that develop only after 
years have passed, can be detected when they're still 
treatable.
    Equally pressing at this time is the need for treatment. 
We're identifying many people who need ongoing treatment for 
World Trade Center related physical and mental health problems. 
But, unfortunately, there is still not an adequately funded 
treatment program. At Mount Sinai we've sought and received 
funding from private philanthropic sources to establish a 
treatment program for a limited number of World Trade Center 
responders. But philanthropy simply cannot provide all the 
sources necessary to provide care who need it.
    Among the first 350 patients we have seen in our treatment 
program, we have found that 75 percent have persistent World 
Trade Center related upper respiratory problems; 44 percent 
have persistent World Trade Center related lung problems, and; 
40 percent have persistent mental health consequences related 
to the disaster. But, 40 percent do not have medical insurance 
and about one-third are now unemployed. It is, thus, urgent 
that funding be made available to provide access to medical and 
mental health care for all whose sustained health consequences 
from the World Trade Center disaster; workers and volunteers 
involved in rescue and recovery, workers from the immediate 
area and area residents as well as their children.
    In conclusion, funding is vitally needed to: One, to 
supplement the current appropriated dollars in order to extend 
the duration of the long term medical monitoring program for a 
minimum of 20 years; two, to ensure access to treatment for all 
World Trade Center related health problems identified in 
screening programs; three, to ensure that those who develop 
future health problems related to World Trade Center exposures 
are able to receive treatment for those conditions, and; four, 
to support clinical research to better understand the human 
health consequences of the exposures, and most importantly, to 
identify treatment modalities for those conditions.
    Surely those who responded so selflessly to the disaster 
deserve no less.
    Thank you.
    [The prepared statement of Dr. Herbert follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.011
    
    [GRAPHIC] [TIFF OMITTED] T2728.012
    
    [GRAPHIC] [TIFF OMITTED] T2728.013
    
    [GRAPHIC] [TIFF OMITTED] T2728.014
    
    [GRAPHIC] [TIFF OMITTED] T2728.015
    
    [GRAPHIC] [TIFF OMITTED] T2728.016
    
    [GRAPHIC] [TIFF OMITTED] T2728.017
    
    [GRAPHIC] [TIFF OMITTED] T2728.018
    
    [GRAPHIC] [TIFF OMITTED] T2728.019
    
    [GRAPHIC] [TIFF OMITTED] T2728.020
    
    Mr. Shays. Thank you very much, Doctor.
    Commissioner.
    Dr. Frieden. Thank you very much.
    Mr. Shays. Is the mic on?
    Dr. Frieden. Good morning. Can you hear?
    I am Dr. Thomas Frieden, commissioner of the New York City 
Department of Health and Mental Hygiene.
    I want to thank Chairman Shays of the committee and 
especially Congresswoman Maloney for holding these hearings in 
New York City.
    The immediate effects of September 11 included the deaths 
from terrorist attack of nearly 2,800 New Yorkers in addition 
to the passengers and crew of the two planes that crashed into 
the WTC. Our efforts now are focused on the many people who may 
experience long term health problems as a result of September 
11.
    The WTC Health Registry is a critically important effort to 
evaluate the short and long term effects to both physical and 
mental health that may result from September 11. A 
comprehensive, strictly confidential health survey of the most 
highly exposed people, it will identify which groups and 
exposures most increase the risk of health problems and which 
are most in need of medical intervention. Significant findings 
will be shared as soon as they become available and reports 
will be posted on the Web every 3 months. We intend to track 
the health of persons who enroll for up to 20 years.
    The registry is unique. It is the only project that will 
allow comparisons across groups and facilitate long term 
followup of a large representative group of people with a wide 
range of exposures and health histories. It is our best chance 
to find out both the spectrum of health effects from September 
11 and to identify and target services for the medical needs 
arising from September 11. Findings will help participants, 
others exposed and the general public and will provide critical 
information for medical professionals who evaluate and treat 
exposed persons. It is a systematic evaluation that should 
allow us to make conclusions about the health effects of 
September 11 both for those who participate and for those who 
do not participate in the registry.
    It is not an attempt to identify and monitor every exposed 
person. It is also not a telephone diagnostic program intended 
primarily to find people with medical problems and provide 
care.
    The registry will identify syndromes and conditions 
associated with exposure and will put clinical studies into 
perspective. We need both the detailed clinical evaluation that 
is provided by Mount Sinai and NYU and others, and the 
comprehensive approach the registry provides.
    The registry is a collaboration between the health 
department, ATSDR, FEMA and New York City community and 
business organizations. The development of the scientific plan 
for the registry has, from its inception, involved the 
collaboration of scientists from many academic institutions 
both within and outside of New York City.
    ATSDR has committed funding for project years 2 through 5 
for core functions. However beginning in calendar 2005 we will 
need at last $2 million more per year for basic registry 
functions for the intended 20 year life of the project.
    We are very pleased with the response to the registry in 
the first 8 weeks of enrollment. More than 10,000 people have 
completed the telephone interview. Another 5,000 have 
preregisted, and these numbers continue to increase each day. 
We are also reaching tens of thousands of others for whom we 
already have contact information.
    The registry has a Federal certificate of confidentiality 
ensuring protection of individual information from subpoena or 
Freedom of Information Act requests.
    The registry is the most recent of many activities 
conducted by the health department following September 11. 
These include: Syndromic surveillance to identify clusters of 
illness; inspection of food distribution, mandated washing 
stations; emergency department monitoring for injuries; rescue 
worker injury and illness monitoring; community needs 
assessment of Lower Manhattan; indoor air quality assessment.
    And the department also implemented Project Liberty, a FEMA 
funded crises counseling and public education program. Project 
Liberty has assisted more than 900,000 New Yorkers effected by 
September 11 serving a population ethnically diverse and 
similar to the city as a whole.
    Project Liberty is scheduled to end on December 31st of 
this year. We are hopeful for an extension so that the fire and 
education department programs can continue.
    We thank you for your interest and support. However, much 
more needs to be done both to address the needs of those still 
suffering from the effects of the attack and to ensure that we 
are as prepared as we can be. The city continues to ask the 
administration and Congress to provide bioterrorism and 
Homeland Security funding based on risk and consequence.
    We were the target of two of the four planes hijacked on 
September 11. We were the target of four of seven anthrax-laden 
envelopes sent in the fall of 2001. And we are the target of 
most of the terrorist chatter that mentions a specific 
location. But despite having more than half of the Nation's 
recent attacks and having more than half of the risk of future 
attacks, we receive less than one fortieth of the Federal 
dollars for bioterrorism preparedness.
    In fact, per capita New York City ranks a shocking 45th out 
of the 54 jurisdictions receiving bioterrorism funding.
    We have asked the administration and Congress for more than 
$900 million for emergency preparedness, $100 million of which 
is for the health department. And as I noted before, the WTC 
Health Registry, our best chance to know the health effects of 
September 11 and most effectively target long term 
interventions has a large funding gap in the out years.
    Thank you for your interest and continued support.
    I will be happy to answer question.
    [The prepared statement of Commissioner Frieden follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.021
    
    [GRAPHIC] [TIFF OMITTED] T2728.022
    
    [GRAPHIC] [TIFF OMITTED] T2728.023
    
    [GRAPHIC] [TIFF OMITTED] T2728.024
    
    [GRAPHIC] [TIFF OMITTED] T2728.025
    
    [GRAPHIC] [TIFF OMITTED] T2728.026
    
    [GRAPHIC] [TIFF OMITTED] T2728.027
    
    Mr. Shays. Dr. Weiden.
    Dr. Weiden. Chairman and members, today I've been asked to 
talk about the health and welfare of FDNY firefighters and the 
EMS rescue workers after September 11. I will focus on what 
lessons we have learned and what changes should be made as we 
move forward.
    On September 11, two 110 story towers and several other 
buildings collapsed during rescue and evacuation. With these 
collapses, FDNY firefighters and the EMS rescue workers went 
from being first responders to victims. Although, first 
responders accounted for nearly 12 percent of the dead, our 
surviving firefighters and EMS and rescue workers continued to 
work uninterrupted both at the WTC site and throughout NYC. We 
must never forget that despite the tragedy of that day, FDNY 
successfully evacuated over 20,000 civilians and saved 
countless lives. The extraordinary heroism of our firefighters 
and rescue workers will forever remain a beacon of courage, 
commitment and dedication.
    WTC dust is pulverized concrete, fibrous glass, silicates, 
carbon particulate matter and asbestos. The upper airways were 
overwhelmed by this burden and the dust had an extraordinarily 
high pH causing deep burns of lung, sinuses and esophagus.
    Since inhaling this dust can cause considerable harm, it 
was important to find out if masks or respirators were 
available and were actually worn by FDNY rescue workers. By 
week two, 70 percent of firefighters had the proper respiratory 
for this exposure, but only 30 percent were able to wear it 
most of the time. Why? Because these masks were uncomfortable 
and difficult to communicate to through others.
    To improve respiratory protection at future disasters, we 
need better planning, improved respiratory design and supply. 
Two years after the WTC, we still don't have that. Improved 
design and supply will naturally lead to improve compliance.
    FDNY Bureau of Health Services understood the need to 
provide immediate medical monitoring and treatment. From 
October 2001 to February 2002 we provided every FDNY 
firefighter and EMS worker with the opportunity for a full 
medical. We also partnered with the CDC and NOISH to provide 
specialized tests that were not part of our standard medical.
    Several months into the World Trade Center rescue and 
recovery effort, two Port Authority Police officers were 
reported to have high mercury levels. In response, authorities 
wanted to close down the site. That would have created enormous 
emotional stress to every family member still waiting for a 
loved one to be found. At that point FDNY's Bureau of Health 
Services had already done urinary mercury levels on over 8,000 
people and none were elevated. These findings allowed the site 
to remain open, a major untold benefit for families of the 
missing.
    We have found that 25 percent of the highest exposed FDNY 
firefighters have airway hyper reactivity and many have asthma 
or reactive airways dysfunction. To date, 280 FDNY firefighters 
have qualified for retirement disability pensions due to 
permanent lung impairment, and we project that anywhere from 
300 to 500 additional firefighters will ultimately be 
permanently impaired from respiratory disease.
    Respiratory problems are not the only issues FDNY is coping 
with. Since September 11 our firefighters and the EMS rescue 
workers have been functioning under incredibly high stress 
levels. They have lost coworkers, they have lost friends, they 
have lost family. They have a different role in life now. 
They've been exposed not just to fires, they have been exposed 
to a new mission.
    In our FDNY WTC medical monitoring program, 48 percent of 
our rescue workers reported difficulty sleeping; 36 percent 
reported unusual irritability; 34 percent reported difficulty 
concentrating, and; 33 percent reported anxiety. These are 
major problems for people who did not have problems pre-WTC.
    Eighty percent of our firefighters and EMS rescue workers, 
independent of their age or their extent of WTC exposure 
indicate that they are concerned about their health, and 20 
percent are worried about that their future may be cut short.
    Since September 11 our counseling unit has rapidly expanded 
to provide educational group and individual sessions using 
funding from Project Liberty, the IAFF and FDNY and local 
unions and private philanthropists. Project Liberty dollars 
supplemented by these other sources has allowed us to provide 
individual counseling sessions to over 5,700 FDNY rescue 
workers and families. These individual counseling sessions are 
in addition to the many group therapy, firehouse briefings, 
department wide interventions that we've done since that time.
    To serve their needs and to allow FDNY to continue to serve 
the needs of New York, it is essential that Project Liberty be 
continued past its 2004 end date.
    In conclusion, we cannot prevent the exposures that have 
already occurred to these men, but through the long term 
medical monitoring and counseling programs that I've described 
today, we can all work to restore the health of those who did 
survive. That is why the Federal funding provided for long term 
medical monitoring of WTC rescue workers is critically 
important. We are glad that the recent agreement has been made 
that should help with the release of these funds. We need to 
continue our commitment to each FDNY firefighter and EMS rescue 
worker, a covenant that states when you come out of the flames, 
we will be there for you.
    [The prepared statement of Dr. Weiden follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.028
    
    [GRAPHIC] [TIFF OMITTED] T2728.029
    
    [GRAPHIC] [TIFF OMITTED] T2728.030
    
    [GRAPHIC] [TIFF OMITTED] T2728.031
    
    [GRAPHIC] [TIFF OMITTED] T2728.032
    
    [GRAPHIC] [TIFF OMITTED] T2728.033
    
    [GRAPHIC] [TIFF OMITTED] T2728.034
    
    [GRAPHIC] [TIFF OMITTED] T2728.035
    
    Mr. Shays. Thank you, Dr. Weiden. I know that you had to 
skip over parts of your testimony. The whole testimony will be 
a part of the record. And I appreciate your assisting us. And I 
know others of you did that as well.
    Mr. McArdle.
    Mr. McArdle. Good morning, everyone.
    I am Philip McArdle, health and safety officer for the 
Uniformed Firefighters Association. I would like to thank this 
committee for inviting me to present this information to you on 
behalf of the 8,500 firefighters serving the city of New York.
    It has been over 2 years since the September 11 attacks and 
almost 1 year since the UFA lobbying before the U.S. Congress 
for September 11 medical monitoring money. Many of the long 
term health issues that I will discuss here today have been 
reported many times to committees, in congressional hearings 
and to the Department of Homeland Security. Unfortunately, even 
after the countless task forces, testimonies, circumstances 
have not changed for the members of the Uniformed Firefighters 
Associations. In fact, in the opinion of the executive board 
and our membership, the situation has gotten worse.
    In the days following September 11, many firefighters were 
not given the proper respiratory protection devices, even 
though complaints about this issue had been made for years. The 
department did not have still does not have a respiratory 
protection program as required by Federal regulations for air 
purifying respirators for well over 10 years. This is clearly a 
violation of the Code of Federal Regulations 29 CFR 1910.134, 
which states the standards for respiratory equipment 
supervision and use. The results of improper respiratory 
protection are clearly stated in a study conducted by Mount 
Sinai more than a year ago, with support of the National 
Institute for Occupational Safety and Health that found that 78 
percent participating first responders reported at least one 
WTC related pulmonary symptom. The same study reported that 52 
percent of the September 11 workers are suffering from some 
form of post-traumatic stress syndrome. It was within 1 year 
that these numbers have increased. Unfortunately, we cannot 
provide you with any specific data about the amount of increase 
in the health problems because the funds that were allocated 
for the long term medical care of our members have yet to be 
distributed to the FDNY Bureau of Health Services. We are still 
waiting for that money, and it has not come.
    The hold up in the distribution of funds coupled with the 
reality that no money has been allocated for treatment of WTC 
victims' related illnesses has resulted in the health needs of 
our membership being neglected because of partisan politics and 
bureaucratic red tape.
    As of October 2003, the FDNY has retired approximately 
1,800 firefighters due to WTC related illnesses. And I'm just 
going to break from my testimony for 1 second to make another 
point. As late as last night I was told by the department that 
there are still some 600 members of our department who are 
still waiting to be processed out of the organization.
    Both the union and the fire department agree that this 
unprecedented retirement rate will continue as more 
firefighters are examined and diagnosed with September 11 
related illnesses. All 1,800 of these firefighters were healthy 
before September 11, and would have most likely worked for the 
fire department for an average of 20 years or longer, which had 
been the trend prior to September 11. Instead, we have members 
who in some cases are as young as 30 years old, who will be 
disabled for the rest of their lives.
    As retirement decreases, it will cost more for long term 
health care than ever before. Prescription drugs is our biggest 
concern. The New York City Firefigher WTC medical monitoring 
treatment that will be run by FDNY Bureau of Health Services 
with joint sponsorship of the UFA, UFOA and the EMS/Paramedic 
Unions has found that in the first month four firefighters 
required life support, mechanical ventilation, for chest 
surgery for severe respiratory stress following WTC exposure 
during the collapse. Ninety-five percent of the firefighters 
complained of new-onset respiratory symptoms, mostly cough, 
during the first week. In the first 6 months following the 
collapse, 343 FDNY firefighters required more than 1 month of 
medical leave for new onset respiratory illnesses such as 
asthma. And nearly 2 years later, over 1,800 FDNY firefighters 
have or in the process of receiving permanent disability for 
new onset of post-WTC asthma and respiratory injuries.
    Random volunteer testing of the highest exposed of FDNY 
firefighters present during the first day of collapse has found 
that 25 percent have new onset, post-WTC airway hyper 
reactivity/asthma on objective medical testing--
methacholinechallenge testing. This has persisted on serial 
testings. Firefighters who were not present during the collapse 
but were there during intense rescue and recovery efforts over 
the next 48 hours, nearly 7 percent have new onset post-WTC and 
persistent airway hyper reactivity.
    This is not a New York City issue. This is a national issue 
because the U.S. Government is handling the situation. It is, 
and will be looked at as a template for what could happen in 
the future. Long term health problems, increased disability 
claims and the rise in the cost of prescription drugs needed to 
treat these problems will financially impact everyone, not just 
the people in New York City.
    We strongly believe that the $25 million that was 
appropriated specifically for firefighter/EMS long term health 
care monitoring needs to be distributed to the FDNY Bureau of 
Health Services as soon as possible. This program is already in 
operation and is carefully monitored by an expert advisory 
panel that includes many notable experts in this and related 
fields. This program is in danger of ending without funding 
that has already been appropriate but not yet provided.
    Furthermore, our initial findings clearly indicate that 
additional services will be needed. We strongly urge that every 
dollar go for its original intention: The medical care of our 
rescue workers. $25 million should immediately be transferred 
to this program.
    These dedicated firefighters and the EMS workers rightfully 
deserve long term health care and monitoring funding 
immediately. They deserve to be treated with the dignity and 
dedication that they rightfully earned when they risked their 
lives and health while participating in the largest rescue and 
recovery effort in his-
tory.
    Thank you very much for your time.
    It would be my pleasure to answer any questions you have 
regarding this issue.
    [The prepared statement of Mr. McArdle follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.036
    
    [GRAPHIC] [TIFF OMITTED] T2728.037
    
    [GRAPHIC] [TIFF OMITTED] T2728.038
    
    [GRAPHIC] [TIFF OMITTED] T2728.039
    
    Mr. Shays. Thank you very much.
    Mr. Willis.
    Mr. Willis. Good morning.
    Mr. Shays. Good morning.
    Mr. Willis. I would like to thank the Chair and the members 
of the committee for the opportunity to speak on these vital 
issues.
    My name is Jimmy Willis. I'm here on behalf of President 
Roger Toussaint and members of the Transport Workers Union, 
Local 100, the subway and bus workers of the MTA New York City 
Transit, and most particularly on behalf of our 4,000 members 
who worked ``on the pile'' at Ground Zero.
    On the morning of September 11, 2001, as the Twin Towers 
burned, there were two evacuations in progress. One, of course, 
of the towers was due to the heroic efforts of fire, police and 
emergency response teams. The other evaluation took place in 
the subways and buses in, around and under the Trade Center and 
was accomplished by Transit workers.
    Due to the fact that the disaster occurred during rush 
hours, there were dozens of crowded buss in the area and 
approximately 200,000 passengers in the subway trains in the 
area. All of these passengers were safely evacuated without 
injury by Transit workers. Hundreds of evacuations began 
simultaneously in the transit network around Ground Zero. Two 
of those evacuations are indicative of what transpired.
    In the minutes before the first collapse, train operator 
Hector Ramirez had instructions to bypass the World Trade 
Center by subway control. As his train entered the station, 
Ramirez saw hundreds of panicked screaming passengers. Despite 
orders, he stopped his train. Ramirez and his conductor then 
evaluated everyone from the platform and took the train out of 
the station. That was the last train through before the towers 
collapsed.
    One block from the Trade Center bus operator Franklin 
Chandler stood by with his bus in case he was needed. After the 
towers collapsed, Chandler did not leave his post. HE searched 
through the debris for injured survivors, placed them on his 
bus until it was full, and drove them all to area hospitals.
    New York City Transit must be ready to rebuild and repair 
the largest subway system in the world. Thousands of Local 100 
members are hard hats: welders, track workers, payload 
operators, carpenters, ironworkers, etc. At approximately 11 
a.m. on September 11th all of Transit's heavy equipment was 
mobilized to the Brooklyn waterfront and loaded on barges. 
Thousands of transit workers then sailed with the equipment to 
Manhattan and began the torturous process of digging through 
the pile.
    The U.S. Department of Transportation has recently released 
a report which states that: The MTA played a critical role in 
the rescue effort at Ground Zero and in helping restore parts 
of the city's infrastructure including communications, and; at 
one point MTA employees comprised 60 percent of the rescue 
force at Ground Zero.
    Unfortunately, this level of response has come at a 
terrible price. It is well documented that rescue workers were 
exposed to asbestos, mercury, lead, pulverized glass and 
concrete, a virtual toxic soup. Transit workers toiled for 
weeks at Ground Zero without respirators. Unfortunately, New 
York Transit, New York City Department of Health and New York 
State deferred site air quality and safety to the EPA. Of the 
4,000 transit workers who responded to Ground Zero, as many as 
half of us are now seriously ill. Thousands of other rescue 
workers are also ill. Most of us should not have been allowed 
to work at the site without appropriate personal protection. 
The investigation into the EPA Inspector General's report, as 
well as the EPA's role with regards to Ground Zero air quality 
must be thoroughly and completely investigated.
    Local 100 members who were at Ground Zero are now suffering 
from respiratory disease, gastrointestinal disorders and 
depression. The same afflictions our brothers and sisters from 
the fire department, police department, emergency service and 
building trades are facing. I can attest to this. I worked with 
our welders at the site. As a result of my time spent at Ground 
Zero, I've been diagnosed with gastrointestinal disorders and 
lifelong respiratory disease. I am only one of many.
    We at Transit work for a State agency that is self insured 
for workers compensation and has, as a result, controverted 
every single case, comp case, arising out of Ground Zero. Among 
those cases is bus operator, the Reverend Franklin Chandler, 
who I previously mentioned, and who saved so many lives on 
September 11th. When he filed for injuries arising out of his 
heroic work that day, he was termed a liar, malingerer and 
fraud by Transit. He and his family went 8 months without a 
check until a compensation judge ruled in favor. It is 
outrageous that men and women who risked their lives for their 
country and on behalf of others should be so callously treated.
    Local 100 President Roger Toussaint insisted the New York 
City Transit partner with us in a counseling program aimed at 
alleviating some of the trauma associated with Ground Zero 
among transit workers. I coordinated that program on the 
local's behalf. After helping only 150 of the 4,000 members at 
Ground Zero, New York City Transit pulled out of the program 
once they became aware of its workers comp implications.
    The issue of medical treatment and compensation arising out 
of work at Ground Zero and the cost associated with it, should 
rightfully be borne at the Federal level. Appropriations for 
this must come through Congress and be signed by the President.
    Many Local 100 members have been seen by the staff at Mount 
Sinai World Trade Center Clinic. This program provides for 
initial and followup screenings, and the programs is federally 
funded. The medical and support staff at the Mount Sinai World 
Trade Center Clinic have been wonderful. My members continually 
praise the care they receive there. Any thought to reducing 
this primary source of care to make more available to satellite 
clinics is ill advised. Rather, an increase in funding is 
called for. However, an increase in funding for screenings is 
not nearly enough. The members of my local are utilizing their 
own medical benefits to cover the costs of actual care. In 2 
years when we begin contract negotiations with the MTA, they 
will point to the burdensome charges carried by our health 
plan. Costs associated with Ground Zero work. The reality is 
that New York City Transit will seek to renegotiate down our 
health benefits due directly to so many members utilizing care 
because of Ground Zero related illness.
    Those of us who responded to Ground Zero are in crises. The 
response to that crises on a State and Federal level has been 
sorely lacking. Federal funds need to be allocated immediately 
to cover the cost of health care for those who sacrificed at 
Ground Zero. Additionally, the MTA, a New York State agency, 
needs to realize that those of us who responded to Ground Zero 
must have immediate access to our workers compensation benefits 
without needless controversy.
    Finally, congressional leaders applauded the rescuers at 
Ground Zero. On September 13, 2001, President Bush appeared at 
Ground Zero and thanked us for being there when this country 
needed us. We ask the same thing, Mr. President. Those of us 
who were there when our country needed us are now in peril. 
Will you and Congress help us now that we are in need.
    Thank you.
    [The prepared statement of Mr. Willis follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.040
    
    [GRAPHIC] [TIFF OMITTED] T2728.041
    
    [GRAPHIC] [TIFF OMITTED] T2728.042
    
    Mr. Shays. Thank you, Mr. Willis.
    Mr. Graham. Thank you. We're all set.
    Mr. Graham. Hello. My name is John Graham. I am a health & 
safety instructor and officer of the New york District Council 
of Carpenters. In addition, I am an emergency medical 
technician. I participated in the initial response, rescue, 
recovery and clean up operation at the World Trade Center site, 
beginning the morning of September 11th and ending May 30, 
2002.
    On the morning of September 11th, I reported to the World 
Trade Center on behalf of the carpenter's union as a safety 
officer to assist and aid my fellow carpenters who were working 
at the World Trade Center who might be in need of my assistance 
due to the initial plane crash. Upon reaching the scene I was 
utilized by emergency personnel as an EMT. Stationed at the 
base of the North Tower I witnessed the more horrific events 
that I have ever seen in my life, the events that continue to 
haunt me to this day. I continued to perform my duties despite 
the appalling scene unfolding before me until I was momentarily 
incapacitated by the collapse of the World Trade Center.
    With the collapse of the Twin Towers, I and those around me 
present on that day and those who came to the scene in the days 
and weeks that followed became victims of the worse chemical 
exposure events in the history of the United States.
    On the day I was, I was engulfed in a toxic cloud composed 
of but not limited to pulverized asbestos, lead, mercury, 
cadmium, PCBs and benzene which are known to be highly 
corrosive to human lungs. This cloud that contaminated much of 
lower Manhattan and Brooklyn, unbeknownst to the innocent 
people living and working in the neighborhoods surrounding the 
World Trade Center site. My exposure to this toxic soup of 
carcinogenics continued through the 262 days I worked at the 
World Trade Center site.
    Almost immediately I began to feel the ill effects of the 
exposure. In the moments after the cloud of the collapse of the 
World Trade Center began to clear, I and those around me lucky 
enough to be alive, began to choke, gag and vomit from the 
forced inhalation of the toxic cloud. I had to rinse my face 
and eyes to try to find relief from the severe burning 
sensation I was feeling on my skin and my eyes.
    Within 2 weeks of my initial exposure, I began to develop 
severe respiratory symptoms requiring medical attention. 
Knowing Dr. Stephen Levin of Mount Sinai Occupational and 
Medical Center, and his expertise in these medical chemical 
exposures on a job site, I turned to him for his medical 
expertise.
    Since October 2001 I have been receiving treatment from Dr. 
Levin and his staff at Mount Sinai for my respiratory and other 
exposures resulting from the chemical exposure at the World 
Trade Center site. I have been diagnosed with and continue to 
suffer from RADS, reactive airway disease, a chronic form of 
asthma resulting from the chemical exposure at the World Trade 
Center site. My rescue inhaler is my constant companion, 
despite the staff at Mount Sinai doing their best to help me 
with my medical problems as possible at this time.
    In addition to my medical problems, I have been and 
continue to suffer from chronic post-traumatic stress disorder, 
for which I have been receiving treatment since October 2001.
    Prior to September 11th, I was a healthy, hard working 
father, son and husband. Today, I am a chronically ill man who 
is anxious about my ability to support my family. I am no 
longer able to work as a carpenter. My chronic asthmatic 
condition makes it difficult for me to carry out my duties as a 
safety officer, father, son and husband. I often have to stop 
my activities to use my inhaler and catch my breath. It breaks 
my heart not to be able to run and play with my two daughters, 
as I once was able.
    I'm not alone in my ill effects that I am suffering from 
the chemical exposure on September 11 and the days after. I am 
one of thousands. Despite the best treatment available, we 
continue to experience severe symptoms. And more research is 
needed to understand the diseases we suffer from and the 
treatments that will effectively bring relief.
    I am not naive enough to think that anyone can cure us from 
our chemical exposure we have experienced, but some relief 
would be nice.
    On September 11th, 2,811 people were killed. My greatest 
fear is that the number of fatalities from the World Trade 
Center attack will continue to rise as time goes on and those 
of us exposed to this toxic soup begin to die off from the long 
term effects of this deadly chemical exposure.
    It is only with the support of Martin Daly, my boss, and 
the National Institute of Environmental Health Sciences and the 
doctors and staff at Mount Sinai that I am able to continue and 
function at this time.
    Thank you.
    [The prepared statement of Mr. Graham follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.043
    
    [GRAPHIC] [TIFF OMITTED] T2728.044
    
    [GRAPHIC] [TIFF OMITTED] T2728.045
    
    Mr. Shays. Thank you, Mr. Graham.
    Mr. Rapp.
    Mr. Rapp. Good morning, committee, members of Mount Sinai, 
ladies and gentlemen. My name is David Rapp. I'm a construction 
worker with the Local 1456 Dock Builders District Council of 
Carpenters.
    I was at Ground Zero for near 5 months including 3 days of 
the first week of the terrorist attack. I hope my testimony is 
going to make everyone aware of what we experienced at Ground 
Zero and what I and others are going through now.
    I viewed, smelled, handled things that you could not 
imagine. Although I worked 12 hours a day, 7 days a week, I 
looked forward back for another shift. I started experiencing 
health problems like dizziness, shortness of breath and skin 
rash while I was still working down there. Although we 
accomplished what we set out to do, which was keeping the 
slurry wall from collapsing as the debris was removed, our job 
was installing tie-backs while being exposed to who knows what.
    My job was completed in March 2002 at Ground Zero. I went 
to my next job at Kennedy Airport driving piles for American 
Airlines where my ability and stamina had diminished. I was 
laid off the first week of April and have not worked since.
    I am a 42 year dock builder that normally could do as much 
as a 22 year old, and more. I could carry a 150 pound tank of 
oxygen or astatine a half a block through a rough job site. But 
now I cannot even take out my household garbage.
    I am also an auto mechanic with 5 certifications. After a 
long day of dock building I could still come home and install a 
200 pound transmission on my back off my chest. Now I cannot 
even change a flat tire.
    There is a lot of fear in my life now. I have had several 
emergency visits, several short stays in the hospital. I rely 
on oxygen at night to sleep and I still wake up sometimes 
gasping for air trying to stay calm. Sometimes I feel like I'm 
underwater.
    I have had a sore throat for 15 months now. When I cough I 
can feel the outlines of my lungs. I sleep on a recliner, 
straight up. I cannot go out in the humidity or breath cold 
air. I need to keep my house at a 65 degree temperature where 
my wife sleeps with a quilt. I am on steroids, which have 
caused weight gain. I have put on 50 pounds since I stopped 
working in April 2002, which probably does not help my 
condition but the steroids do help.
    I am on 12 other different medications, plus 3 types of 
inhalers. And I carry an oxygen tank wherever I go for 
assistance to breath. I cannot tell you how hard it is living 
like this. My fear of not being able to get my next breath is 
unbearable.
    I am going to two different doctors at this time. One is a 
Dr. Leo Parnes and the other is Mount Sinai Health for Heros.
    Mount Sinai has been great to me. They have been helping me 
since November 2002. They helped me get immediate benefits from 
workers compensation. Most importantly with the medications 
that I rely on to breath. All of their staff have been 
compassionate and express real concern for my future. They 
always make sure I have enough medication.
    I would like to end this with I have a beautiful wife of 27 
years and two sons in their 20's that fear for my future, as 
well.
    Thank you very much.
    [The prepared statement of Mr. Rapp follows:]
    [GRAPHIC] [TIFF OMITTED] T2728.046
    
    Mr. Shays. Thank you, Mr. Rapp for your testimony. Thank 
you for being here today. We really appreciate it.
    I am going to call on Mr. Owens, who has joined us. He is a 
very active member of the full committee. And then it's my 
intention to recognize for questions Mrs. Maloney, then Mr. 
Turner, then Mr. Towns, then Mr. Owens, then Mr. Nadler and 
then myself.
    The usual procedure in Congress is that we have 5 minutes 
of questions. This subcommittee prefers 10 because you can have 
better followup. We are going to just set the clock at 7 
minutes, Bob.
    And at this time, though, Mr. Owens, this is not your 
question time. But if you would like to make a statement, we 
welcome that.
    Mr. Owens. Thank you, Mr. Chairman.
    Let me begin by thanking you as chairman and my colleague 
Carolyn Maloney for putting forth the effort to make this 
hearing possible.
    On April 28th of this year in response to a request by the 
Central Labor Council under Brian McLaughlin and the New York 
Committee on Occupational Safety and Health headed by Joel 
Shufro, we held an unofficial hearing, Caroyln Maloney and I 
here in New York on that worker Memorial Day, April 28th. And 
that was several months before the EPA Inspector General issued 
his report.
    I see at least three of the people who testified at that 
hearing. I want to thank them for their past testimony and for 
their testimony here today.
    We are making a headway at a very slow pace, but I think 
that we are bringing the attention to the fact that what 
happened on September 11 highlights something unfortunate about 
our government. It says that certain governmental agencies have 
no respect for residents and citizens and workers. They may 
even have contempt for them. We have a Government that proposes 
now to bring justice to Iraq. After liberating them, they're 
going to provide justice and just government. But here the 
justice does not include taking care of the workers who are 
suffering now, in this country, as a result of being victimized 
by an act of war. It was an act of war. And many of our 
colleagues in Congress seem to think that New York is asking 
for something special when it asks for this kind of help. But 
it was an act of war. They were not targeting the World Trade 
Center because it was in New York State or New York City. They 
targeted the World Trade Center because it was a target of the 
United States that was the target of the terrorists.
    One of the ways that we must move at the State and city 
level, along with the congressional delegation and the two 
Senators from New York, is to keep insisting that the World 
Trade Center tragedy was a result of an act against the United 
States of America. The people of New York State and New York 
City should not be asked to suffer unduly or to bear the cost 
of righting all the things that have gone wrong as a result of 
September 11th. It was an act of war.
    Homeland Security becomes a farce if we are going to treat 
the people who are on the front lines of Homeland Security with 
contempt. And this situation shows that they are being treated 
with contempt.
    We would like to see workers and all those who support 
workers begin to scream louder and in a more continuous fashion 
to get this injustice corrected.
    In the war against terrorism, workers are going to be 
warriors whether they like it or not. They are warriors. 
Workers must be recognized and rewarded as heros. Certainly 
workers should receive the best medical care possible.
    And I ask unanimous consent to enter a more expanded 
statement into the record with documentation.
    Mr. Shays. Thank you.
    Without objection, so ordered. It will be done.
    This hearing is not, again, going to answer every question 
that is raised. I am going to ask for the support of this 
committee to make sure that we do not waste the opportunity 
with the witnesses we have to look at the call of the hearing; 
and the call is what is known about the short and long term 
health effects of the September 11th attack on those who worked 
at Ground Zero and live there today, and how effective are the 
steps taken by the Federal and local government to investigate 
health effects and provide treatment for those injured.
    We are interested in knowing.
    To start with at this hearing, next hearing we will expand 
it, but we want to know what is the health condition of those 
who were working on Ground Zero. What type of diagnoses, 
treatment, compensation, and we do not want to waste the 
opportunity to learn the answers to these questions.
    I realize some Members are going to ask some questions that 
we may not have answers for. I felt very strongly that Members 
should have an opportunity in their opening statements to 
address an issue much wider than this hearing; put it on the 
record, challenge the committee to deal with this issue during 
the course of our hearings. And I think that is the challenge 
that we need to accept.
    At this time, Mrs. Maloney, I recognize you for 7 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman.
    And I thank all the panelists and I thank especially my 
colleagues for their ongoing support of efforts to help the 
victims, the rescue workers and everyone with September 11.
    And you have raised many, many issues that we need to 
address. I find it startling that we did not have the proper 
equipment to protect people and that we still do not have the 
proper equipment to protect people in the event of a disaster.
    But I have two questions that I would like to ask the 
entire panel. And first of all, I would like to ask you to 
raise your hand if you think the Federal Government can do more 
than it is doing to help the workers, rescue workers and others 
because of the effects of September 11? Raise your hand if you 
think we should be doing more?
    Mr. Shays. For the transcriber, all our witnesses including 
Dr. Levin has responded in the affirmative.
    Mrs. Maloney. And then I would like each of you very 
briefly, because you could use up all of my 7 minutes and I do 
not want it all used up, could you tell me very briefly what it 
is you feel the Federal Government should be doing? And we are 
going to start with Dr. Herbert and go right down to Mr. Rapp. 
What more could we be doing to be helpful? Very briefly.
    Mr. Shays. Very briefly because I know time is short.
    Dr. Levin. The issue has been addressed by several of the 
panel members.
    No. 1, there is a terrible need for treatment resources. I 
think the witnesses here, the workers who are effected, made 
quite clear that the resources available now really are a 
patchwork of a broken workers compensation system and 
philanthropic funding, as well as people's private insurance or 
out-of-pocket. And this is no way, from a public health 
perspective, for the Federal Government to address what is 
clearly a public health need.
    For people to have to jump through the hoops of a workers 
compensation system that sets up barriers to their getting 
through that system and getting actual treatment, benefits, and 
wage replacement is an outrage, given what these people have 
done.
    No. 2, we need adequate funding for followup evaluations of 
this population. Those who have been screened already have 
exhibited high rates of respiratory problems, high rates of 
psychological distress. We need to follow them in the short 
run. Out of the $90 million, $60 million now can be used for 
the followup of this group of responders. That is enough to 
cover, perhaps, 5 or 6 years of examinations. It will require a 
great deal more funding to follow them for the minimum of 20 
years they should be followed, not only because we will learn 
something important scientifically about what the consequences 
of exposure might be, but because people who may develop these 
longer range illnesses need to have these illnesses identified 
when they are treatable; that means the earliest detection 
possible.
    I do not have time to say much more. I will say only that 
we need also a more comprehensive coordinated response in 
general, should there be an event like this in the future, so 
that we are not playing catch up and doing our first screening 
examinations 10 months after an event.
    Dr. Frieden. I'll be brief. Three areas where we urge the 
Federal Government to do more.
    First, to fully fund the WTC Health Registry in the out 
years. There is a funding gap of $2 million each year for 20 
years.
    Second, as all of the panel has noted, resources for 
referral and medical care for those effected by September 11 
are needed. They are not sufficient as they currently exist. 
This is a national tragedy that happened, the expenses are 
being borne by the city, by the workers, and by the individuals 
who are effected. The Federal Government should step up to the 
plate and provide those referral and treatment resources.
    And third, in terms of future efforts, to prioritize New 
York City. Please do not play politics with preparedness. We 
know that most of the risk is to New York City. We have many 
needs for preparedness that are not yet met. We need increased 
resources to meet those needs.
    Dr. Weiden. So I implore you to break the bureaucratic log 
jam that is preventing money that has already been allocated 
from setting up ongoing health monitoring. I am one of the two 
pulmonologists working for the fire department. I routinely say 
goodby to people after they have gotten their disability 
retirements. And I say wait for a letter from us stating when 
and where you should show up for your long term monitoring. 
There is no such letter being sent out. There is no place to 
bring these people back. And the longer the gap between our 
ability to monitor them and care for them, and some place that 
they can centrally be cared for, the more people will fall in 
between that gap.
    Mrs. Maloney. Mr. McArdle.
    Mr. McArdle. I just have four items. And basically I 
believe that the Government should provide long time monitoring 
care for our members. They also need to provide long term 
treatment for our members, not just monitoring. But treatment. 
And also long term care for our members.
    Because the fourth item that I just want to mention is that 
the Government has a responsibility to show the rest of the 
Nation that if they follow a good template for taking care of 
the people in New York, they can take care of the rest of the 
country the same way. If they do not establish a good template 
for taking care of people here, there is going to be no 
confidence in Government in the future of taking care of these 
catastrophic events.
    Mrs. Maloney. Mr. Willis.
    Mr. Willis. Thank you.
    Federal appropriations for long term treatment and care is 
a must. And frankly, with respect to Ground Zero, the State 
comp process should be taken out of it. It should really be a 
Federal function.
    And, Congresswoman Maloney, I could not agree with you 
more; if these issues are not taken care of now, if we have 
another disaster, we are going to be hurting finding people to 
respond.
    Mrs. Maloney. Mr. Graham.
    Mr. Graham. My issue is I think that sooner or later I will 
be disabled and the health coverage for myself is an issue, and 
for my family. I am a sole provider for my family on health 
coverage. And if I do go out on disability, besides for the 
one-third less salary I will be bringing home, I will not have 
any health benefits for my two daughters who are 9 and 5.
    Mr. Rapp. I, too, like Mr. Graham am sole supporter. And I 
believe that we should be covered for our future. And instead 
of sending billions of dollars over to other countries and 
stuff like that, we should be taking care of that as a 
priority.
    Mrs. Maloney. Thank you.
    Well, would you be surprised, Mr. Rapp and Mr. Graham, who 
have been working and receiving workmans comp, that the State 
of New York got $175 million to help pay for workers 
compensation. But you seem to be having trouble getting this 
money, Mr. Willis, even though the money was appropriated by 
the Federal Government, the $175 million? I guess he is telling 
me my time is up, but if you could----
    Mr. Shays. No, go ahead and answer the question.
    Mrs. Maloney. If you could. In other words, we sent the 
$175 million and you are saying you are having trouble getting 
it out of workmans compensation and we should just abolish the 
program and go straight to the Feds. But if you could explain? 
They are turning down people like yourselves that have risked 
your lives to save others? Could you elaborate a little bit, 
because this has to be addressed. We have to get the money to 
the people who sacrificed their lives.
    And I have to say, Mr. Graham and Mr. Rapp, if you do go 
out on disability and you lose not only your income, to lose 
your health insurance is just awful. At the very least, the 
Federal Government should provide the health protection for 
those of you who risk your lives. I thank all of you on behalf 
of my constituents in my city for your brave efforts.
    But could you respond to that, in fact we sent the money, 
so what is the problem? They're not processing or----
    Mr. Willis. OK. With regards to transit workers, we work 
for a State agency. New York City Transit is self insured for 
workers compensation. As such, it is a budgetary process for 
them. Every dollar they spend on comp is a dollar out of their 
budget. They are holding a meeting today telling the people of 
the city of New York how broke they are.
    It is outrageous that every comp case for a State agency 
has been controverted.
    We have people who were down at Ground Zero who have been 
fired because they were Section 71 by the State.
    Mr. Nadler. What is Section 71?
    Mr. Willis. OK. Section 71 if you have more than 12 months 
off out of work on a comp case or on an injury or an illness, 
the State can seek to terminate you, and they have.
    In one case I know of a welder who was at Ground Zero, is 
one of our transit workers. And some of you may remember in the 
first days as horns went off went they thought there would be a 
building collapse, this guy was knocked down. He had a knee 
replacement, was not able to get back to work. He has been 
fired. He is not alone. OK.
    This is a State agency.
    Mrs. Maloney. Well, we will followup on that.
    My time is up. I thank the chairman.
    Mr. Shays. Mr. Rapp, Mr. Graham, what about responders?
    Mr. Graham. I will just speak on my own behalf. My workmans 
comp case has been controverted. So that is my--I know what 
that means, but it means they are not paying.
    Mr. Shays. For the record, what does it mean?
    Mr. Graham. It means that they are arguing my case. That 
they are not actually----
    Mr. Shays. They are protesting.
    Mr. Graham. They are protesting.
    Mr. Shays. They're protesting. OK. Fair enough.
    Let us go on. How much time did we use on this question, 
totally how much did we use. What does the clock say? OK.
    Mr. Turner, you have the floor.
    Mr. Turner. Thank you.
    I want to thank all the members of the panel for the spirit 
of which they are approaching this. I appreciate Mr. Owens' 
statement that this is an act of war against our country and 
that the individuals who have impacted in this have been 
impacted by a national catastrophe and an act of war.
    And, Mrs. Maloney's statement that this is an issue that 
has bipartisan support. Because certainly the Nation's response 
to this was on a nonpartisan basis. So certainly our analysis 
of how we go forward is also bipartisan and nonpartisan.
    When Mrs. Maloney asked the question of how many people on 
the panel think that the Federal Government could do more, I 
wish you had allowed us to raise our hands, too. Because I 
would have joined you, Mrs. Maloney, in saying that the Federal 
Government can absolutely do more.
    Mrs. Maloney. Thank you, Mr. Turner.
    Mr. Turner. The question that we have, obviously, before us 
is do more of what? And so it is not a neglect of the Federal 
Government that there is not an action of our list of things 
that we could do. This is the process that we go through, the 
deliberative process of making certain that we do the things 
that are best and that those get implemented.
    I really appreciated the information on what are the things 
that we need to do and the gap of treatment and making certain 
that individuals that do not have access to treatment, receive 
the information of followup and the coordinating of response.
    I think we all want to make certain that the heroes of 
September 11 get the attention and response that they need, but 
our concern is that the bureaucracies of September 11 also get 
the oversight that they need.
    In looking at the issue of the amount of long term health 
monitoring and the information and the testimony that has been 
provided to us, some of the money has been released, some of 
the money has not yet been released. But we have already on the 
Federal Government allocated and some spent, $122 million for 
assessment and for registry and for screening. That is not a 
small amount. And the request that we get today is that amount 
be extended in 20 year programs and then looking at what that 
amount will be.
    My questions are twofold. One, as I acknowledged in my 
comments, you know mine was a community that responded to the 
call from New York City to send EMS and firefighters as part of 
the recovery effort that is here. So my first question is to 
what extent does the fire registry program, the New York City 
Department of Health and Mental Hygiene and Mount Sinai's 
efforts go beyond just the individuals that currently are in 
the area, but those that were impacted that came in?
    And second, I would really like some discussion 
specifically between Mr. Freiden and Dr. Herbert and Mr. 
McArdle concerning the coordination of these programs. Because 
you know when you get to $122 million and you are just 
beginning to scratch the surface and you are each talking about 
20 year programs and the annual amounts to maintain them, to 
what extent are your processes being coordinated?
    Let me start with Dr. Herbert?
    Dr. Herbert. Well, actually because Dr. Levin and I are co-
directors, we agreed that I would give testimony and he would 
respond to questions, if that is OK.
    Dr. Levin. She left the tough job to me.
    Well, No. 1, we have worked very well with the fire 
department's medical group and have compared notes and findings 
and approaches to the monitoring and evaluation of our 
respective groups, really from the beginning. And what was so 
striking to us early on was how similar the findings among the 
firefighters were to what we were seeing among the other rescue 
and recovery workers.
    In going forward, are very likely to be able to work out 
common screening protocols so that we may even at some point be 
able to share data in a common data base. And this will be 
important, I think, to understand better what the clinical 
consequences were and what are the best approaches to 
treatment.
    So far as the other question, the national scope of our 
program, were mandated by NIOSH, when we received a contract to 
establish a consortium of institutions to provide these 
screening examinations, to cover all of those people nationwide 
who had come to New York and then returned to their home cities 
to do rescue and recovery work here at Ground Zero. And we are 
doing this through the coordination of the Association of 
Occupational and Environmental Clinics, a network of public 
health oriented clinics throughout the country. They are going 
to have provided, by the end of this program, some 1,000 
examinations at cities located geographically pretty well-
distributed across the country.
    And, in fact, in Ohio I just spoke with the director of the 
program at University of Cincinnati who is seeing some of the 
people in Ohio.
    It is not enough. There are people, we are afraid, who will 
not be covered. For example, the Federal employees who were 
paid with Federal dollars to do their rescue and recovery work 
are not covered by our program. State employees are not either. 
Unfortunately, unlike the State employees here in New York, 
there is still no program for Federal employees who came to 
Ground Zero. There is no screening program, no monitoring 
program going forward. I think, again, if we're talking about 
public health across the States, this is clearly another public 
health mistake.
    Mr. Shays. Let me just say, I want to give 10 minutes to 
each Member. We are going to end up using it anyway. So add 
three.
    Dr. Frieden. In terms of the extent of the registry, anyone 
who meets the eligibility criteria can enroll. We have already 
had enrollees from dozens of States, including several dozen 
individuals from Ohio. And so it is available for any who were 
in the groups that were most exposed to enroll.
    In addition, the results of the registry will be relevant 
not only for those who participated and not only for those who 
meet the criteria for enrollment, but also for others who had 
lesser levels of exposure. It will allow us to generalize. It 
is the only evaluation that can put into context the clinical 
findings and give us the overall picture.
    In terms of coordination, I think there's excellent 
coordination. We are on the advisory committee of the Sinai 
group, they are on our advisory committee. We coordinate 
frequently. We consult each other when issues arise. And we are 
looking at different pieces of the puzzles, which will give us 
the most comprehensive overview of the impact, the groups at 
highest risks, the conditions that are most problematic, and/or 
what the treatments that are most effective for those who have 
been impacted the most.
    Mr. Turner. Mr. McArdle.
    Mr. McArdle. I think that the points that I want to make is 
that we do have some coordination, but not complete 
coordination. I believe that we communicate regularly with the 
people at Mount Sinai. We communication, our labor union 
communicates with our medical office. And I believe that in the 
end what will actually happen is that the data that is 
collected by the New York City Fire Department will be the very 
best data available on what happened. And this is the reason 
why.
    Our people from the day they start employment in the New 
York City Fire Department get a medical annually because of 
hazardous materials regulations. And because of that, we have 
data knowing what everybody's medical condition was pre-
September 11. And this is why it is so important not to hold 
back on the money from the FDNY.
    Our money was sole sourced. And we believe that what is 
happening in this battle for the rest of the money, you are 
neglecting a very important portion of the information that is 
going to of value to the entire Nation down the road. It is 
imperative that our fire department get the $25 million right 
away. And there is a lot of government haggling about the 
money. And we absolutely need that to stop.
    Mr. Turner. Dr. Weiden, the issue on coordination?
    Dr. Weiden. I think that because of the organization of our 
occupational health facility, we will be leading indicators. 
And we are dedicated both to collecting the information, 
disseminating the information in an academic channel. We have 
now published, I think, four articles which I think were the 
first. I think that we will continue to find things, publish 
them, get them out there and be a light for everybody else.
    So I would urge that you support us as a separate entity 
and then we will then disseminate the information.
    Mr. Turner. Mr. Willis on the issue of coordination from 
the registries and--no answer?
    Mr. Graham. I think we need more research and more 
coordination from all departments to find out what medications 
might work, what treatments might work. If someone comes up 
with more ideas of treatment that might relieve some of the 
problems that we all are experiencing, if that should come down 
and people could join together and find out. We need research. 
We need somebody to find out.
    Right now my medication just keeps me at this point. I am 
not tremendously getting better, I am not getting tremendously 
worse. I need to find something that would cure, relief, 
something.
    Thank you.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    At this time the Chair would recognize Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman.
    Let me begin by first commending on the outstanding work 
that you are doing here at Mount Sinai. I notice that was one 
thing that everybody sort of agreed on at the table, and I 
would also like to associate myself with those remarks.
    Let me ask, and Dr. Herbert, you have indicated that the 
questions should go to Dr. Levin, right?
    Dr. Herbert. That is right.
    Mr. Towns. OK. Dr. Levin, as the medical director of Mount 
Sinai, said the earlier WTC related illnesses are detected and 
treated, the more likely the treatment will prevent long term 
illness and disability. Given this, it makes sense to me to 
expand the list of people who should be included in screenings 
to make sure that every one adversely affected is checked. 
Maybe you pay a little more up front to detect problems, but 
you save money and people's lives in the long run. Do you agree 
with the logic?
    Dr. Levin. Yes, I certainly do. And I think that has been 
our approach from the very start.
    We saw people being taken off that pile within the first 
couple of days, gasping for breath, choking, and could predict 
at that time that there would be a great deal of potential 
longer-term effects with respiratory problems--upper 
respiratory problems and lower respiratory problems.
    But in our clinical center, our Center for Occupational and 
Environmental Medicine, before our screening program began we 
were seeing community residents. We were seeing people who had 
returned to office space down in lower Manhattan for whom this 
screening program is not intended. Those people suffered 
respiratory illnesses as well. Do I think the Federal 
Government should have developed a program to evaluate those 
people who came back to work in the area, who came back to 
occupy residential space, the school children who came to 
school so early? Yes, I do. I think from a public health 
perspective that would have been the correct thing to do. I 
still think it is worth doing.
    Mr. Towns. Right.
    Dr. Freiden, how do you feel about that?
    Dr. Frieden. Certainly early detection and effective 
treatment of conditions related to WTC is something that can 
minimize future impact.
    Mr. Towns. Right. Well, let me say this: On August 26, 2002 
following the Newsday article ``Winds of 9/11: No Scrutiny For 
Brooklyn For Attacks, Toxic Smoke Drifted.'' I wrote to you 
expressing my concerns about leaving Brooklyn residents who may 
have been exposed to WTC toxins out of the World Trade 
registry. Given the additional research performed which shows 
that the intense heat of Ground Zero blew the pollutants 
upwards creating a loft effect causing these pollutants to blow 
toward Brooklyn and dropped on my constituents, do you think 
that it might be worth reconsidering now whether Brooklyn 
residents should be eligible for the registry?
    Dr. Frieden. Let me clarify several things.
    First, the services available for evaluation, medical 
evaluation and treatment are not related to participation or to 
eligibility for participation in the registry.
    So whether or not someone is eligible to participate in the 
registry and whether or not they do actually participate in the 
registry has no bearing on the services available to them. The 
same services will be or will not be available to them in 
either case.
    As it is, there are in our estimate close to 400,000 people 
who would be eligible for participation in the registry. Given 
that, our focus is on those most heavily exposed so that we 
have the best possible chance of documenting what the health 
impacts were and the extent of those impacts.
    There is no harm to opening the registry up for more people 
who would want to participate, however it is not currently 
funded for a broader group of individuals who are not among 
those who are among the most intensely exposed. If resources 
were available, we would not in any way be opposed to allowing 
people from Brooklyn or, for example, from between Canal and 
Chambers which is also not in the eligibility now of the 
registry to participate. They're undoubtedly exposed. We are 
not saying that they are not exposed. What we are saying is 
that given the extent of the exposure, the heaviest exposed 
groups are those that are currently eligible for enrollment. If 
resources were to allow, we would have no objection to having 
additional people eligible enroll.
    Mr. Towns. And when you say additional resources, what are 
you really talking about?
    Dr. Frieden. It costs, to be frank about it, about $100 per 
person who enrolls in the registry. We are currently funded to 
allow the enrollment of as many as people as are eligible from 
within that most heavily exposed group. This, from a scientific 
perspective, we do feel will allow us to make conclusions about 
all of the groups, not just those who are most heavily exposed, 
not just people who are participating, but also others 
including those from Brooklyn.
    And I would also comment that many people from Brooklyn do 
fall within an exposure category and are eligible for 
participation. We already have thousands, I think more than 
1,000 of Brooklyn residents who are part of the registry, as we 
also have thousands of people who are from the unions who are 
part of the registry. We have had a very good response, and we 
continue to encourage people to participate so that we have the 
best possible chance of documenting and evaluating the 
population-based long term health impacts.
    Mr. Towns. I think the reason I'm raising this question, as 
you know, the Newsday article indicated that from the photo you 
actually could see this cloud up in the sky and it was dropping 
over Brooklyn.
    So it seems to me we should have a great interest in trying 
to find out more about that, being we are trying to get as much 
knowledge as we possibly can. And it has been indicated by 
Mount Sinai that early detection makes a lot of sense. So it 
seem to me that we would want to devote some of our resources 
and energy into trying to make certain that we find out this 
information as soon as we possibly can in order to prevent long 
term disability and all kinds of other things that might occur 
if we do not do this.
    Dr. Frieden. Based on the best data available, atmospheric 
data, analyses of the plume, analyses of exposure, we feel that 
the current exposure groups for the registry do represent those 
individuals most heavily exposed to and most at risk for 
potential health effects of September 11.
    Mr. Towns. Right. Well, you know I just want to make 
certain that we do not leave Brooklyn out.
    Let me just sort of move on to coordination point.
    Running down the table, can you think of anything that 
needs to be done that might assist in the coordination? Because 
I think that coordination is very, very important because we 
are not talking unlimited resources.
    Yes?
    Dr. Levin. Well, I will comment on that. Yes, I think the 
coordination should have been in place from the very start of 
this terrible event, and going forward, should there be another 
disaster, whether it is a terrorist attack or some other 
natural disaster, we need certain things in place. And that 
includes, for example, an independent, already identified panel 
of experts, environmental health experts, who could be convened 
rapidly to assess the hazards and the likely health 
consequences and clinical effects of these exposures.
    When I say ``independent,'' I mean independent of political 
and economic considerations. Not that they will not come into 
play at some point, but in the deliberations of that expert 
panel, they should not be influenced by politics and by money 
considerations as they consider the issues of health 
consequences and the decisions made to protect people's health.
    In such an event you need a rapid comprehensive 
registration of everybody who is down there. And as much as it 
was the wild west, surely we could have done better in trying 
to capture who was down at that site. And that may occur in the 
future, the necessity to try to register people quickly.
    You need the rapid distribution of respirators. You need 
the rapid training of people to wear respirators. A number of 
people here have talked about that issue; how late it was in 
getting adequate respiratory protection to people who really 
needed it.
    You need the rapid establishment of health evaluation and 
treatment capability, including a fast-track mechanism of 
funding from the Federal Government to institutions that can 
provide this kind of an evaluation, so that we will not be in 
the position again of waiting 8, 10 months, a year before 
people get their first evaluation after they have been ill now 
for at least that period time.
    Yes, we need coordination. The coordination has to be 
immediately in response to the event, and then all those 
institutions and agencies that are involved in trying to 
provide a public health response have to be working together 
under some coordinating unit.
    Mr. Towns. Right.
    Any other comments on coordination? Because I think that is 
very, very important.
    Yes, Mr. Willis.
    Mr. Willis. Actually, Congressman Towns, at that time at 
that day I lived in Brooklyn. On the morning of September 12th 
my wife and daughter woke up to think that there was a fire in 
the house. What they were smelling was a cloud coming down from 
Ground Zero. At that time we lived by the foot of the Verrazano 
Bridge, which is down in Bay Ridge--10 miles away. And they 
thought there was a fire in our house.
    And in terms of coordination, I think that Federal agencies 
simply need to recognize that there is an issue here and they 
have to wake up and give help now.
    Mr. Towns. Thank you.
    Doctor.
    Dr. Weiden. So, I am an academic. And on the academic model 
one of the ways of assuring coordination and transparency is a 
series of annual meetings with all of the stakeholders 
participating where the current results are presented in 
public. And I think that would go very far to ensuring the 
various constituencies here that everything that can be done is 
being done; that the money is well spent and disseminate the 
information beyond the specialized centers to the board 
constituencies with regard to care.
    Mr. Towns. Right. And, Mr. Chairman, I have enough for Mr. 
McArdle's answer?
    Mr. Shays. Yes.
    Mr. Towns. Yes, sir?
    Mr. McArdle. Just a few issues. As far as coordination 
goes, I think that one of the important things is to make sure 
that when we have these types of events, that there is 
compliance with Federal safety regulations. Clearly, they were 
not followed on September 11. I know a lot of the rules went 
out the window. But labor organizations, who are a good part of 
the early operations, were basically ignored. And some of their 
concerns about their members' health was ignored. And now we 
are paying the consequences for that right now.
    And I think the strict safety discipline at these events in 
the future is also very important and going to prevent long 
term exposure issues and long term medical problems.
    Dr. Frieden. I would just like to say very briefly that at 
the city health department, we have a total commitment to 
openness and transparency. We are clear about what we know, 
what we do not know, what studies we have done, what they have 
found.
    I think at the general level, Federal, State, local there 
are many very controversial issues, particularly environmental 
issues are controversial.
    In regard to environmental issues, there is a great deal of 
suspicion, there is a great lack of knowledge. And it would 
serve the public best if there were a combination of complete 
openness and, as was called for before, a kind of independent, 
impeccable respected, scientifically-valid group to look at 
what we know already, what we do not know already and determine 
what more we might need to know. Because there have actually 
been an enormous number of studies done, some of them done 
superbly by groups here at this panel, some of them by others. 
There is, in fact, an enormous amount of environmental data 
available.
    And so I think it is important that we have the mechanism 
to look at that openly, transparently, hearing from everyone 
and being clear about what we know, what we do not, and what 
more we need to know.
    Mr. Towns. All right. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Owens, Major Owens, you have the floor.
    Mr. Owens. Let me begin with one narrow question to 
followup on my colleague Mr. Towns' question. We are both 
concerned about the fact that residents of Cobble Hill, 
Brooklyn Heights and Park Slope who, incidentally, lost a 
number of lives in the World Trade Center think they have been 
abandoned, deserted in terms of concerns about the pollution 
impact there.
    In your determination of the areas that you would focus on, 
were there any criteria other than budgetary ones that 
determined how broad, how wide your scope would be, how big 
your area would be?
    Dr. Frieden. Let me reiterate that there is no less 
attention to those who were exposed in any area. The World 
Trade Center Health Registry does not enable people to get more 
health services, nor does it restrict health services from any 
other groups. It is an attempt to systematically document 
health impacts, so that we can generalize about the people who 
were exposed and identify what syndromes are associated with 
exposure to WTC.
    Many residents from Brooklyn have already enrolled. We hope 
that many more enroll.
    In determining which were the most heavily exposed groups, 
we did not look at budgetary issues at all. We looked at what 
the exposures were, and the exposures related to residents, 
they related to presence, they related obviously to rescue and 
recovery operations both in WTC and at the Fresh Kills landfill 
where there was exposure directly to the potentially toxic 
materials that were involved in the WTC. Residents in lower 
Manhattan are all included.
    Mr. Owens. What's the geographical, you know, if they are 
in proximity to the site? Nobody went out and took any 
measurements in Brooklyn----
    Dr. Frieden. No. Actually extensive--right.
    Mr. Owens [continuing]. To find out much debris had dropped 
there.
    Dr. Frieden. Extensive analysis of the plume was done. And 
in no way are we saying there was not exposure in Brooklyn. 
However, all of the evidence that we have reviewed does 
indicate that the exposure, that the plume, fell most heavily 
in lower Manhattan.
    Mr. Owens. Thank you.
    I see that a representative of the National Institute for 
Occupational Safety and Health was scheduled at one point to 
testify here.
    Mr. Shays. Panel two.
    Mr. Owens. Panel two. Well, I will save this for panel two 
then.
    Well, I will ask you. Anyone of you, what kind of role have 
you seen OSHA play in this drama from beginning to end? Would 
you like to make any significant comments as to the role of 
OSHA? Yes?
    Mr. Graham. OSHA was there very early on. They were there 
to help myself and many other workers there. It was a touch job 
they were put into. There is no real regulations that state 
what do you do when a 110-story building collapses, how do you 
handle it.
    Extremely enforceful. They mandated that anyone on the job 
site not complying was removed. My administration complied to 
that.
    A lot of due diligence on OSHA's part. They were there 24 
hours a day, 7 days a week to do the best job they could.
    Mr. Owens. What has been your experience at Mount Sinai 
with OSHA? Any significant?
    Dr. Levin. Well, we have many colleagues and friends who 
were on the ground, so to speak, working with OSHA trying to 
determine levels of exposure, trying to ensure respiratory 
protection.
    There was clear arena of debate, and that is that OSHA was 
not in enforcement mode. They were in a consultative mode. 
There was a partnership between the contractors and the unions 
to enforce safety regulations on the job. And if you look at 
the actual accident rates and the fact that not one fatality 
occurred on that site, clearly the accident rates were half of 
what would have been expected on a comparable demolition or 
constructionsite with that many person hours worked.
    Nevertheless, the fact that OSHA was not in enforcement 
mode did mean that some of those workers out there on the pile 
were not wearing adequate respiratory protection and there was 
not full enforcement requiring that they do so. And there was a 
price that was paid in the health consequences for people who 
were there.
    I do not fault those hard-working OSHA people that we have 
worked with for so long for their efforts, because they tried 
very hard to do the right thing. The policy question of whether 
that was the right way to go, I think is a remaining subject 
for debate and discussion.
    Mr. Owens. Are you getting cooperation from them now that 
is compensatory to what they had to do then?
    Dr. Levin. In our screening program we have worked most 
closely with NIOSH, the National Institute for Occupational 
Safety and Health, which is sort of the research arm under the 
CDC. And we have worked very well with our colleagues at NIOSH. 
Our only complaint is we would like to see this funding coming 
through for long term medical monitoring fast enough so that we 
will not be stuck in a situation where there is a gap between 
the current screening program and the future longer term 
monitoring. But in the development of the medical protocol, in 
how to think about these issues, we have worked very well with 
NIOSH and found the experience with them to be very helpful.
    Mr. Owens. My final question is a little broader. The 
Federal Government is to be congratulated, the administration 
and both parties, for the steps it took to deal with the 
casualties, the victims at the World Trade Center, the way the 
insurance and the compensation has been handled I think is 
outstanding. You know, I voted for it so I take some credit. 
But it was unprecedented.
    Is it not possible to deal with workers on the site and 
their problems in the same kind of way? Under one umbrella make 
some decisions about who is to be compensated for what and what 
kind of care, who it is entitled to and for how long, and what 
kind of damages people are due compensation for? Is that 
undoable?
    We are dealing with a finite number of people. I am not 
talking about residents. I am talking about workers who were 
there on the site, most of them who can prove they were onsite. 
Is it not possible to look at some kind of bigger more 
comprehensive program which would deal with all these problems 
and not have to nickel and dime it and then beg your way 
through philanthropy and agency generosity here and there?
    Dr. Levin. Well, if you are asking us at Mount Sinai that 
question?
    Mr. Owens. I am asking everybody who might want to comment, 
yes.
    Dr. Levin. Well, we certainly feel it ought to be possible. 
Because the actual experience of people who responded down 
there, whether they were workers or volunteers, has been 
absolutely awful.
    I mean, you heard from people today what it is like trying 
to get through this broken workers compensation system. The 
system was broken not just after September 11. It was broken 
before. It is quite stark now that you have people who did so 
much down there to help others who----
    Mr. Owens. Yes. But there was no system for the insurance, 
the payment of people who lost their relatives there. We 
created a system afterwards.
    Dr. Levin. Yes, you are right.
    Mr. Owens. And that is what I am talking about. Can we not 
create a system which then would become a model for the future 
in terms of situations like this instead of trying to put 
together with rubber bands and gum?
    Dr. Levin. I certainly think that such a system could be 
developed. I think the experience that we at Mount Sinai, and 
others, who have provided care to such workers and volunteers 
could help develop such a system. And it would be rational and 
it would put in place a mechanism for getting people treatment, 
for their studies that they absolutely need, without their 
having to go through the nightmare of trying to get some 
workers comp insurance company to say yes to this after a year 
and a half has passed and still nothing has been done. Yes, we 
could develop a system.
    Mr. Owens. Thank you for putting that on the record.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you, Mr. Owens.
    Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    First, just to followup on the workers comp for a moment. 
Commissioner Freiden, you have heard here that the MTA, which 
is a State agency, has controverted and disputed every workers 
comp case arising out of the World Trade Center catastrophe. 
Has the city administration done anything to speak to the 
Governor the State or the MTA about this disgraceful practice?
    Dr. Frieden. I am not familiar with that, but we could 
certainly find out about it and get information back.
    Mr. Nadler. I mean, in other words all these employees of 
government agencies, every single case the MTA says, the 
government says you may be a hero in September 11 but you are a 
malingerer, you are a liar, you are a phony false claimer. 
Every single case. I find that disgraceful. I find it 
disgraceful for the State government. I find it, frankly, 
disgraceful that the city government has not done anything 
about it. No. 1.
    No. 2, Mr. McArdle, Mr. Willis, Mr. Graham, Mr. Rapp, when 
you were working on the pile were you wearing respirators?
    Mr. McArdle. I was, yes.
    Mr. Nadler. The entire time?
    Mr. McArdle. Yes.
    Mr. Nadler. And you still have all these health effects?
    Mr. McArdle. I am not one of the people who is impacted by 
it.
    Mr. Nadler. OK. Mr. Willis?
    Mr. Willis. No, I had a paper mask.
    Mr. Nadler. I'm sorry?
    Mr. Willis. I had a paper mask.
    Mr. Nadler. Not a respirator?
    Mr. Willis. No.
    Mr. Nadler. Were you offered a respirator?
    Mr. Willis. I'm sorry?
    Mr. Nadler. Were you offered a respirator?
    Mr. Willis. No. None were available.
    Mr. Nadler. None were available? Did you ask for one?
    Mr. Willis. No.
    Mr. Nadler. But you were made aware that none was 
available?
    Mr. Willis. Yes. There was no one around me at that time in 
the first, you know, in the first few days that I saw where we 
were working who had them.
    Mr. Nadler. And then was just the first few days.
    Mr. Willis. Right.
    Mr. Nadler. What about after the first few days?
    Mr. Willis. After that, you know, some of our people in 
transit who were respirator qualified----
    Mr. Nadler. Were respirator qualified?
    Mr. Willis. Right. You have to be qualified for a fit?
    Mr. Nadler. You mean physically qualified?
    Mr. Willis. Right. Yes. Yes. For instance, with a beard, 
you are not.
    Mr. Nadler. And if you were not qualified, they did not 
tell you to shave off your beard, they said go work there 
without the respirator?
    Mr. Willis. That question did not even come up. We were 
ordered there, and a lot of us actually volunteered. I, for 
instance, volunteered.
    Mr. Nadler. But respirators were or were not available 
after the first few days?
    Mr. Willis. No. No, no, no, no. They were not--first of all 
transit does not even have that quantity of respirators to 
cover the thousands of hard hats that they had there.
    Mr. Nadler. So people in transit worked for weeks on the 
pile without respirators and no one made any attempts to get 
them respirators.
    Mr. Willis. I mean, we had bus operators. For instance, the 
firemen for the most part were brought down to the site from 
Canal Street by our bus operators back and forth. I am aware of 
bus operators who will never work again because they had no 
respirators.
    Mr. Nadler. OK.
    Mr. Graham.
    Mr. Graham. During the initial collapse I did not have a 
respirator. Following that my trips down there were, I did have 
a respirator and I did do--personally give my membership a 
tremendous amount of--we spent a tremendous amount of money, my 
membership, on respirators and fit testing.
    Mr. Nadler. The union bought the respirators?
    Mr. Graham. Yes, they did.
    Mr. Nadler. Not the State or city government, or the 
Federal Government?
    Mr. Graham. I am trying to give you the exact date. The 
12th or 13th, those days are a little blurry to me, sir, but 
that week my particular union bought thousands of dollars in 
respirators.
    Mr. Nadler. In respirators.
    Mr. Graham. And we bought fit testing and we brought it to 
the site. And we got our membership and we started fit testing 
our membership.
    Mr. Nadler. And you saw the necessity of doing that right 
away?
    Mr. Graham. Yes. I felt it.
    Mr. Nadler. OK.
    Mr. Graham. In my chest.
    Mr. Nadler. Mr. Rapp.
    Mr. Rapp. Yes. Me also. I had a respirator from November to 
March when I was working.
    Mr. Nadler. From November? What about September to 
November?
    Mr. Rapp. No. I wasn't there. I volunteered. I did not have 
the respirator.
    Mr. Nadler. So you used the respirator the entire time?
    Mr. Rapp. Well, it was hard to communicate with your other 
workers----
    Mr. Nadler. So you used it part of the time?
    Mr. Rapp. Yes.
    Mr. Nadler. Part of the time?
    Mr. Graham. Mr. Nadler.
    Mr. Nadler. Yes.
    Mr. Graham. Just one other thing. I would love for the 
congressional hearing to try to work, even sitting at a desk, 
for a 12 hour day with this respirator on.
    Mr. Nadler. With a respirator on? I understand.
    Mr. Graham. Not walking up and down and not digging in a 
pit, but just sitting for 12 hours, even 2 hours. Just try it 
and see what it is like.
    Mr. Nadler. Yes.
    Now, Mr. McArdle, in your testimony you say that many 
firefighters were not given the proper respiratory protection 
devices even though complaints about this issue have been made 
for years, the department did not and still does not have a 
respiratory protection program as required by Federal 
regulations for air purifying respirators for well over 10 
years. This is in violation of CFR 1910.134. To your knowledge 
they still do not have those respirators?
    Mr. McArdle. Yes. And I would just like to make a 
clarification also, Mr. Nadler. When you asked the question 
about respiratory protection, I had respiratory protection when 
I initially got down there, which was self contained breathing 
apparatus, not a full faced APR. Once the air supply ran out, 
that was it.
    When I say that the department did not have respiratory 
protection, they did not have full faced air purifying 
respirators----
    Mr. Nadler. They did not have the adequate proper 
protection?
    Mr. McArdle. Right.
    Mr. Nadler. Mr. Weiden, does the department not have the 
proper protection that is required by law or does it? And if it 
does not, what are you doing to change that?
    Dr. Weiden. I do not know what the law is. I am a clinic 
physical taking care----
    Mr. Nadler. OK. I'm sorry, do no answer that. I thought you 
were more higher up in the department or differently, laterally 
in the department.
    Dr. Frieden. He is higher up.
    Mr. Nadler. That is why I said laterally. That is why I 
said laterally in the department.
    Dr. Weiden. But let me answer it to the extent that I can.
    Mr. Nadler. Yes.
    Dr. Weiden. The police department has issued terrorism 
bags, which include a respirator to all of its membership. 
There is no such equivalent, currently sanctioned equipment 
that either goes with the member or on any of the apparatus----
    Mr. Nadler. For the fire department.
    Dr. Weiden. For the fire department. The only respirator 
that is currently being used is the full face self contained 
breathing apparatus.
    Mr. Nadler. So in other words, it is fair to say that it 
differs by department and for volunteers and people from other 
departments, a lot of people did not have respirators and some 
did.
    Let me ask the following question: Dr. Freiden, you state 
in your testimony and you spoke about it in response to earlier 
questions, that you concentrate in the registry and where 
people were most heavily exposed, that is to say below Canal 
Street. What scientific data do you have that Canal Street is 
the boundary for heavy exposure; that there is any difference 
between one block south of Canal Street or one block north of 
Canal Street, or for that matter in Brooklyn or on the other 
side of the Hudson River, New Jersey? Is there any scientific 
basis for the boundary for--well, in fact what you did was 
simply copy the boundary that the EPA made for their so called 
clean up program. Is there any scientific basis for this 
boundary?
    Dr. Frieden. Well, first of all, I would like to clarify 
that it is not solely geographic. There are different groups 
that are eligible----
    Mr. Nadler. No, no. But residents----
    Dr. Frieden. Individuals who are eligible to participate 
include those who worked in rescue or recovery, those who went 
to school or taught in schools--in lower Manhattan. Those who 
lived or worked there.
    Mr. Nadler. All right. People who lived or worked there. 
Just please answer the question, I have more questions.
    Part of this is geographically limited. What is the 
scientific basis for the geographic limit?
    Dr. Frieden. There is a question if a decreasing level of 
exposure. At----
    Mr. Nadler. Well, my question is how do you know given the 
fact that you haven't done--nobody has done what the IG 
recommended, namely concentric circle testing going out in 
concentric circles from the World Trade Center, how do you know 
that in fact there is a decreasing exposure as you get further 
away and how do you know where it is appropriate to place a 
boundary? What is the scientific basis for that?
    Dr. Frieden. We are making the best judgments, given the 
available data, of what the highest level of exposure is. We 
are not saying that those who are a block away from that are 
not exposed. We are saying that there is a gradient of exposure 
based on the best available data.
    Mr. Nadler. Could you furnish us that data? Because 
everything that I know says that there is wholly inadequate 
data. Every testimony that we have had at other hearings says 
that there's wholly inadequate.
    Well, let me ask Dr. Levin. Do you believe there is 
adequate data to sustain what the Commissioner just said?
    Dr. Levin. Well now, we have been advocating all along, 
really since early city council hearings, that this approach of 
going from Ground Zero in radians in all directions, assessing 
levels of surface contamination in interior surfaces, ought to 
have been done. It is a straight-forward approach, and still 
could be done. Because not all clean up has occurred.
    Mr. Nadler. And that is the IG's recommendation?
    Dr. Levin. That would be the way to characterize the extent 
and perimeter of the contamination that occurred.
    Mr. Nadler. But do you believe that the Commissioner is 
accurate in effect saying that a boundary line at Canal Street, 
or any particular street over there, is scientifically based on 
where the most heavy exposure is?
    Dr. Levin. I do not think----
    Mr. Nadler. And not just Canal Street, but----
    Dr. Levin. I do not think he said that. I think he said 
``on the basis of the best available data.'' He, I think, did 
not speak to the question of whether the available data are 
truly adequate. I do not think they are adequate to make that 
determination. I think the characterization by this sort of 
approach we just were talking about really ought to be done, 
and then he can answer the question.
    Mr. Nadler. So it is not scientifically valid to do that 
unless we have data that we do not yet have.
    Dr. Levin. Generally we like to proceed from data.
    Mr. Nadler. OK. Thank you.
    Mr. Shays. Thank you. I am going to take the questions now 
and just read a part of the briefing paper that we had, and 
this was replete with this kind of information.
    Various sizes of particular matter floated in the air and 
blanketed New York City streets. Fires burned under the debris 
until the middle of December 2001. A mixture of plastic, metals 
and other chemicals and products burned or decomposed into very 
fine particles. The content of the plume varied centimeter by 
centimeter. Some researchers found one molecule that had never 
been there before. According to Paul Lioy of the Environmental 
Occupational Health Science Institute of the University of 
Medicine in New Jersey ``Initial exposures were basically a 
blackout, people will, cumulatively, never see in a lifetime. 
The problem we have now is we do not know the long term 
lifetime health consequences. We just do not know.''
    Do any of you disagree with that basic description?
    Let me say to both you. Commissioner, thank you for 
staying. I know you feel a little anxiety because the Council 
has asked you to be there, too. We got you first. And thank you 
for staying.
    And Dr. Levin, I think your health registry is hugely 
important. And your screening is hugely important. I just want 
to go on the record. I am troubled, however, that of the 
200,000 potential people, that only approximately 12,900 have 
been enrolled and only 6,000 have completed the 30 minute 
telephone survey. And I am puzzled by this.
    We have allocated $10 to $20 million for that. I cannot in 
a lifetime think of how we would spend so much money for that. 
And I need you to explain it, and that is why I am happy you 
stayed.
    Dr. Frieden. Thank you very much. And thank you for your 
support of the registry. The registry began enrollment only 8 
weeks ago. And so the money was allocated. It was up to the 
ATSDR, the Agency for Toxic Substance and Disease Registry, to 
select a contractor. They went through the contracting process. 
That took a relatively long time.
    Mr. Shays. So you have not spent $10 million yet?
    Dr. Frieden. Oh, no. No, no.
    Mr. Shays. OK. It is allocated for it?
    Dr. Frieden. That is correct. That is correct.
    Mr. Shays. OK.
    Dr. Frieden. And as of today, we have more than 10,000 
people who have already completed. And so it is really rapidly 
expanding. It is not that the money is already spent. The 
registry just began enrollment 8 weeks ago.
    Mr. Shays. If we care about the people who are impacted, 
the 200,000 who may be, one of the most important things that 
could come from this hearing is having people be aware of it. 
We need people to register, we need these interviews to take 
place, we need this data.
    Tell us, Dr. Herbert, your screening is basically the 
workers who are working in this facility primarily, correct?
    Dr. Levin. It includes--the people who are eligible--
include those rescue and recovery workers and volunteers other 
than New York City firefighters, State employees and Federal 
employees. It also includes people who restored essential 
services: the telephone services, the electrical services, 
water services, etc. It also includes those people involved in 
cleaning up the buildings immediately adjacent to Ground Zero. 
And it includes those workers out at the Staten Island landfill 
who did what they did in the effort.
    So they are the groups that were included.
    Mr. Shays. And it is screening, it is diagnoses, it is you 
are providing medical assistance as well?
    Dr. Levin. No. No funds are available for medical 
treatment. What we do is identify people who, on the basis of 
their history, their physical examination findings, their 
laboratory findings, have illness which we feel are related to 
World Trade Center exposures, and we have a case management 
function built into this to make sure that they get plugged 
into care. That is the role of the screening program.
    Identify those who are ill and make sure, whether it is on 
physical grounds or psychological grounds, and make sure that 
they get put into care. We do not have the resources to provide 
the care, other than some moneys from philanthropic sources 
that enable us to see a small number for a relatively short 
period of time. And that program, which we are grateful is 
funded, now has a 3 month waiting list to get in.
    Mr. Shays. During our Gulf war hearings, of which we had 
more than I can even remember the number, we had a pilot who 
had ALS. He could hardly move any part of his body. He could 
only whisper. His wife and sometimes his father had to tell us 
what he said.
    The last question we asked him was knowing what you know, 
would you still have done what you did. And I think you know 
the answer; he said he would do it again. He would do it again.
    I suspect that all four of you were less concerned about 
your health and more concerned about meeting a very drastic 
human need.
    Mr. McArdle, you wisely used a respirator. If you had not, 
do you think you would be feeling some of the health effects of 
our other three witnesses?
    Mr. McArdle. Yes, absolutely I would be feeling some of the 
same effects. I was fortunate enough to have one with me when 
the event occurred.
    Mr. Shays. Thank you.
    How many days did you work in Ground Zero?
    Mr. McArdle. Approximately 10. I got there right after 
the--I pulled up on the scene right as the first building 
collapsed.
    Mr. Shays. Mr. Willis.
    Mr. Willis. Would I go back? I had--like I said, I 
volunteered to be there, but I had a special reason. I lost two 
family members under there. So, yes, of course I would.
    Mr. Shays. You lost two family members?
    Mr. Willis. Yes, I did.
    Mr. Shays. Let me ask you this, how many days were you at 
the site?
    Mr. Willis. Weeks.
    Mr. Shays. Weeks.
    Mr. Graham.
    Mr. Graham. Would I go back?
    Mr. Shays. I do not need to ask you that question.
    Mr. Graham. OK.
    Mr. Shays. I am really asking you how many days in the 
site?
    Mr. Graham. I was there at least 3 days a week throughout 
the whole project.
    Mr. Shays. Right.
    Mr. Rapp.
    Mr. Rapp. I was there through--for 5 months.
    Mr. Shays. Five months.
    Mr. Rapp. Five whole months.
    Mr. Shays. Well, thank you for what you gentlemen have 
done.
    Now, there is no question on the part of any panelists that 
people need to be properly diagnosed, they need to be properly 
treated and they need to be properly cared for. Some of that 
may be a Federal responsibility, some of it may be a State 
responsibility, some of it may be a local responsibility. In 
any instance, however, it needs to be a process that is 
seamless and does not make you sick just going through the 
process. And nothing should delay that process from happening.
    I would like to know as it relates to the long term health 
effects exposures, what is the best treatment for those 
suffering from respiratory problems? What is the best 
treatment? What do we know?
    Dr. Levin. Well, there is a standard of care for irritant-
induced asthma and sinusitis. It usually involves inhaled 
steroids, either nasal steroids or the kind of steroids that 
asthmatics use. And, of course, Mr. Graham here talked about 
his rescue pump. These are broncho-dilators, things that open 
the airways when they are shutdown. And there are a number of 
other anti-inflammatory medications that are taken either by 
inhalation or by mouth that can be effective.
    When sinuses become acutely infected, one is on 
antibiotics; even a person who has asthma who develops a 
bronchitis, winds up on antibiotics. But the basic standard of 
care for these conditions is well established.
    Mr. Shays. Dr. Freiden, if you need to go, why do you not 
leave. Thank you.
    I'm sorry.
    Dr. Levin. There is a well established standard of care 
which involves the use of these anti-inflammatory medications.
    Mr. Shays. Is it expensive?
    Dr. Levin. Is it expensive? Yes.
    Mr. Shays. Yes.
    Dr. Levin. Unfortunately, these inhalers are quite 
expensive.
    Mr. Shays. No, but the whole process of dealing with 
someone with this type of ailment?
    Dr. Levin. The evaluation expenses?
    Mr. Shays. The evaluations, the treatment?
    Dr. Levin. And the treatment is expensive.
    Mr. Shays. Describe to me what expensive means?
    Dr. Levin. Well, each one of these inhalers runs between 
$60 to $80 for a single unit. A person who has active asthma, 
you know, will go through several of these in the course of a 
month.
    Mr. Shays. Dr. Herbert, you can answer the questions, too.
    Dr. Herbert. Actually, some of the inhalers are even more. 
I mean----
    Mr. Shays. But I am asking about the whole treatment. 
Forget just this little element of it. I want to know are we 
talking thousands of dollars a month, are we talking thousands 
of dollars a year? The total treatment, the total care. I want 
to grasp something about the magnitude of the cost.
    Yes, Dr. Weiden.
    Dr. Weiden. So they are involved in screening, I am 
involvement in treatment.
    Mr. Shays. OK.
    Dr. Herbert. We also do treatment----
    Dr. Weiden. So that their agenda is not treatment of all 
people who come to them.
    Mr. Shays. Yes, sir.
    Dr. Weiden. My agenda is treatment of all people who come 
to them. And I can just tell you that on average I will treat 
these patients for well over a year. I will see them at least 
once a month frequently, two or three times a month. I will 
order testing that will come up to maybe $2,000 to $5,000 for 
any individual case. And I would guess that the respiratory 
component will cost between $200 and $400 a month. And in 
addition with regard to prevention, one of the surprising 
things that we found is that these patients also have severe 
heartburn. And that treating the heartburn, which is also quite 
expensive, then markedly improves the respiratory symptoms that 
respiratory patients have. So I think there is an advantage to 
having all of this done in one place with physicians who see a 
high volume of these patients, and it allows us to be more 
efficient.
    Mr. Shays. Let me ask you, is there anything that any of 
you want to want to record?
    First, may I just ask, is there any Member that just has a 
question that needs to be put on the record, any Member here? 
If not, anything that any of you would like to put on the 
record before we go to panel two?
    Yes, sir?
    Dr. Weiden. One of the things that has been obliquely 
mentioned but is not really been the focus of the testimony is 
post-traumatic stress disorder. I am not an expert in this, but 
it is my assessment that a large proportion of the patients who 
I treat for respiratory illness have post-traumatic stress 
disorder. And I believe that as many permanent disabilities 
will occur on this basis as on a respiratory basis, and it has 
already occurred within the fire department that the number of 
suicides related to the World Trade Center has far exceeded any 
other cause of mortality after the initial collapse.
    Mr. Shays. Anyone else like to put anything on the record?
    Yes?
    Dr. Herbert. We, in fact, have treated hundreds of 
responders. And one of the concerns I have is that in addition 
to treating the respiratory conditions and the mental health 
conditions, our patients are a group who have tremendous 
psycho-social needs because many of them are disabled. They 
need social services as well as physician care. And I would 
hope that would be thought about in any plans for treatment.
    Mr. Shays. Yes?
    Mr. Nadler. Dr. Levin, one question. On a long term basis 
based on what you have seen of respiratory ailments and all the 
other things that you've seen, would you expect to see a high 
incident in all these people of long latency diseases that come 
out 15 years from now, cancers and so forth?
    Dr. Levin. We do not know, but there are certain groups 
among the people that we have screened that we worry about a 
great deal. That includes the people who were cleaning those 
buildings day in and day out, disturbing settled dust without 
respiratory protection, without training. And there were some 
people who were on that pile, right where the plumes of smoke 
were coming out containing high concentrations of carcinogenic 
agents, without respiratory protection who may, in fact, may be 
at significantly increased risk for cancer.
    Mr. Nadler. You are talking about the people who were 
cleaning buildings afterwards?
    Dr. Levin. Cleaning buildings after the collapse of those 
towers, who were provided with no respiratory protection, no 
training, who did this disturbance of settled dust day in and 
day out and in enclosed spaces and really may have sustained 
enough exposure----
    Mr. Nadler. Are you talking about the people who were 
cleaning in the EPA clean up, or you are not referring to that?
    Dr. Levin. Not necessarily that specific group. I do not 
know their levels of protection.
    Mr. Nadler. OK.
    Dr. Levin. I know that building after building, office 
buildings and residential buildings, were cleaned by largely 
immigrant workers who were provided----
    Mr. Nadler. Through private contractors.
    Dr. Levin. Through private contractors.
    Mr. Nadler. That is inside and out?
    Dr. Levin. Inside and out, and the issue for them may in 
fact be one of concern about cancer down the road.
    Mr. Nadler. And OSHA, nobody enforced standards or 
protection on these workers?
    Dr. Levin. Not to my knowledge.
    Mr. Nadler. Thank you.
    Mr. Shays. Thank you.
    Any other closing comments from anybody? Yes, Mr. Graham?
    Mr. Graham. With your statement before about OSHA, OSHA did 
lose their office and they did mobilize quite quickly with no 
office, no communications and no equipment. So, I just wanted 
to put that in.
    Mr. Shays. Thank you.
    I think, Mrs. Maloney has a comment.
    Mrs. Maloney. A brief question to Mr. Rapp, Mr. Graham and 
Mr. Willis, all of whom are suffering from health problems 
related to September 11. I would like to know possibly in 
writing, since our time may be running out, who is paying your 
medical bills? How are you managing financially? Did you apply 
to the Victims Fund, the special fund that is managed by Mr. 
Feinberg? Did they respond to your concerns? And what is the 
current status of your workmans compensation plan? Are you 
having trouble or has that been resolved?
    Mr. Shays. Let us do this; we will supply you a letter with 
those questions. You will make sure our committee has that. And 
if you could respond to it, it would be very helpful.
    Do you have a general response in terms of that question 
that you would like to respond to before we go?
    Mr. Graham. Well, generally my union's paying. Thank God I 
am still working.
    Mr. Shays. You say your union is paying?
    Mr. Graham. My union benefits, my coverage through the 
union is paying for that. And----
    Mrs. Maloney. But if you terminate because of health 
reasons, there will be no health coverage?
    Mr. Graham. Right. I have to work so many hours to earn my 
benefit hours. So if I do not work, there is no benefit. And I 
have applied for victim's compensation. And my workmans comp 
has been denied, whatever.
    Mr. Shays. OK. Denied.
    Mrs. Maloney. Denied? Unbelievable.
    Mr. Shays. Contested?
    Mr. Graham. Contested at least.
    Mr. Shays. OK. Well, we got our work cut out for us, do we 
not?
    Thank you all very much. You have been a wonderful panel. I 
appreciate your patience.
    Mr. Owens. One of the members of the audience, you know her 
written testimony, she could not testify.
    Mr. Shays. Yes. If we could have the name of the individual 
and their address and we will submit it into the record. And we 
will note for the record who that is.
    Mr. Owens. Ms. Heidi Mount.
    Mr. Shays. Without objection, that will be submitted into 
the record.
    [The prepared statment of Ms. Mount follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.047
    
    [GRAPHIC] [TIFF OMITTED] T2728.048
    
    [GRAPHIC] [TIFF OMITTED] T2728.049
    
    Mr. Shays. We are going to call our next panel. Our next 
and our final panel, we appreciate their cooperation.
    Our next panel is: Mr. Paul Gilman, Assistant Administrator 
for Research and Development, Environmental Protection Agency; 
Ms. Diane Porter, Deputy Director, National Institute for 
Occupational Safety and Health [NIOSH] accompanied by Dr. 
Gregory Wagner, Director of the Division of Respiratory Disease 
Studies, National Institute for Occupational Safety and Health. 
And our third witness is Ms. Pat Clark, area office director 
for New York, New York Occupational Safety and Health 
Administration also accompanied by David Williamson with Ms. 
Porter is Dr. David Williamson, Ph.D, Agency for Toxic 
Substances Disease Registry.
    If our witnesses will stand up, please, and we will swear 
you in.
    [Witnesses sworn.]
    Mr. Shays. And I thank others for standing in case we 
needed to go on your expertise. That is very thoughtful.
    I am going to say again thank you for being the second 
panel. Thank you for listening to the first panel.
    We know what our task is, and we are going to get to it. We 
are going to start first with Ms. Porter. We will go to Dr. 
Gilman and then we will go to Ms. Clark. And that will be the 
order of it.
    Ms. Porter, thank you.

  STATEMENTS OF DR. PAUL GILMAN, ASSISTANT ADMINISTRATOR FOR 
  RESEARCH AND DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY; 
     DIANE PORTER, DEPUTY DIRECTOR, NATIONAL INSTITUTE FOR 
  OCCUPATIONAL SAFETY AND HEALTH [NIOSH], ACCOMPANIED BY DR. 
GREGORY WAGNER, DIRECTOR OF THE DIVISION OF RESPIRATORY DISEASE 
STUDIES, NATIONAL INSTITUTE FOR OCCUPATIONAL SAFETY AND HEALTH; 
    PAT CLARK, AREA OFFICE DIRECTOR FOR NEW YORK, NEW YORK 
 OCCUPATIONAL SAFETY AND HEALTH ADMINISTRATION, ACCOMPANIED BY 
DR. DAVID WILLIAMSON, PH.D, AGENCY FOR TOXIC SUBSTANCES DISEASE 
                            REGISTRY

    Ms. Porter. Good afternoon, Mr. Chairman, Representative 
Maloney and members of the committee. My name is Diane Porter 
and I am the Deputy Director for National Institute for 
Occupational Safety and Health, a part of the Centers for 
Disease Control within the Department of Health and Human 
Services.
    Accompanying me here today are Dr. Gregory Wagner, a 
physician and the Director of the NIOSH's Division of 
Respiratory Disease Studies and Dr. David Williamson, the 
Director of the Division of Health Studies with CDC's agency 
for Toxic Substances and Disease Registry.
    Thank you for this opportunity to appear today to provide 
testimony on behalf of CDC and ATSDR regarding our ongoing 
efforts to address the health impacts of the World Trade Center 
disaster on the rescue, recovery and response workers and on 
the nearby community members who were so directly effected by 
the events that day.
    As you know, CDC provided extensive emergency assistance to 
workers and residents near Ground Zero in the immediate 
aftermath of the September 11th attacks. My testimony here 
today will focus on our subsequent activities to address the 
health effects of that disaster on the emergency and front line 
workers who came to help, and to evaluate the physical and 
mental health impacts on the wider community of people living, 
working and going to school in the vicinity of the World Trade 
Center site.
    In the interest of time, I will summarize these activities 
today, but a more detailed description of our efforts is in the 
written statement submitted to the subcommittee.
    In the weeks following September 11th, NIOSH was in close 
contact with the medical staff of the fire department of New 
York and with other community based occupational health 
providers who began reporting health problems they were finding 
in workers and volunteers who had been at the site. An informal 
network of occupational medicine specialists was established 
with NIOSH's assistance.
    Mr. Shays. Let me just interrupt you a second and say if 
this panel, given it's three, goes over its 5 minutes, you know 
that is acceptable. We want you to put on the record what you 
need to put on. So do not feel you have to rush.
    Ms. Porter. Thanks.
    This informal group, lead by Mount Sinai's School of 
Medicine Center for Occupational and Environmental Medicine 
discussed their findings and began to better define the type 
and severity of health problems they had seen. And this 
activity laid the ground work for the creation of a 
comprehensive medical screening program for these workers.
    In November and December 2001, NIOSH was contacted by 
several labor unions and employers representing workers 
employed in buildings near the World Trade Center site asking 
us to look into their health. In response, NIOSH performed a 
series of health hazard evaluations that showed elevated rates 
of upper and lower respiratory and gastrointestinal system 
symptoms as well as symptoms of depression and post-traumatic 
stress disorder in the World Trade Center area workers compared 
to similar workers elsewhere. These symptoms were still present 
2 to 6 months after September 11th.
    In January 2002, with funds from FEMA, CDC provided $4.8 
million to the New York City Fire Department and $2.4 million 
go the New York State Department of Health to conduct baseline 
medical evaluations for New York City firefighters and State 
employees who responded at the World Trade Center site. Shortly 
thereafter, also in 2002, Congress gave $12 million to CDC for 
baseline medical screening of the other emergency service and 
recuse and recovery personnel who responded to the events of 
September 11th.
    CDC awarded the contract to Mount Sinai Center for 
Occupational Environmental Medicine to establish this program 
within weeks of receiving the funds. Mount Sinai, in 
consultation with CDC and other occupational health experts, 
developed a comprehensive screening program which beginning in 
July 2002 provided response workers with a baseline medical 
assessment and assistance with referrals for followup care. A 
consortium of occupational health clinics was created to 
provide these services to response workers and volunteers 
throughout the New York City area and in the rest of the 
country.
    As of October 2003, the consortium has screened over 7,000 
workers.
    In 2003 also, Congress directed that FEMA provide $90 to 
CDC for long term medical monitoring of the World Trade Center 
rescue and recovery workers and volunteers including $25 
million that was designated to the use for current and retired 
New York City firefighters.
    In anticipation of receiving these funds, CDC held a public 
meeting in New York City in May 2003 to gather input regarding 
the content and structure of a long term screening program. 
There was broad consensus among leading participants that the 
program should include: Multiple clinical sites; that the 
existing short term screening program was very satisfactory and 
therefore current providers should continue to provide 
services; that quality control across the centers is important, 
and; that the content of the program should remain flexibility 
to accommodate evolving needs and treatment.
    There was also agreement that the baseline screening 
program should be extended beyond the 9,000 workers who were 
currently funded.
    Based on this input, CDC supplemented the existing contract 
with Mount Sinai within 6 working days of receiving the funds 
with $4 million to cover baseline screening examines to 
approximately 3,000 additional workers. These examinations will 
be conducted through March 2004.
    The $25 million designated for long term followup for the 
New York City Fire Department will be provided to FDNY to 
conduct a program in coordination with CDC.
    Just as the baseline screening program is completed in 
March 2004, the remaining dollars will be provided to clinical 
centers to implement the long term medical screening program 
that will provide workers with a choice of providers. The 
program will also include a centralized coordination center to 
assure quality control and allow for periodic review of 
screening.
    In addition to our activities to address the health needs 
of rescue response and recovery workers, HHS agencies in 
collaboration with others are working to identify the health 
effects of the World Trade Center disaster on the people who 
were living, working or going to school in the vicinity of 
Ground Zero. Details on these studies are outlined in my 
written testimony.
    Finally, the subcommittee has expressed specific interest 
in the World Trade Center Health Registry which was launched on 
September 5, 2003 with an extensive outreach campaign. In 
collaboration with the New York City Department of Health and 
Mental Hygiene and with startup funds provided by FEMA, ATSDR 
has established a registry to identify and track over the long 
term the health of tens of thousands of workers and community 
members who were mostly directly exposed to smoke, dust and 
debris from the World Trade Center site. To date, more than 
10,000 people have been interviewed. It is estimated that the 
registry will included 100,000 to 200,000 individuals including 
rescue and recovery workers, office workers, residents and 
school children making it the largest registry of its kind.
    The registry will provide a complete picture of the health 
effects resulting from the events of September 11th. It also 
will serve as a resource for future research studies into the 
health consequences of September 11th and a tool for 
disseminating important health information to the public and to 
health care providers so that people can make informed 
decisions about their health care.
    In addition, people interviewed also will be provided with 
referrals to health care providers for health problems they may 
be currently experiencing.
    The registry will be maintained over time by the city 
Department of Health and Mental Hygiene.
    In summary, CDC and ATSDR are committed to assessing the 
health effects resulting from the September 11, 2001 attacks on 
the World Trade Center and identifying the physical and mental 
health needs of effected workers, residents and community 
members.
    Thank you for your attention.
    I'm please to answer any questions.
    [The prepared statement of Ms. Porter follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.050
    
    [GRAPHIC] [TIFF OMITTED] T2728.051
    
    [GRAPHIC] [TIFF OMITTED] T2728.052
    
    [GRAPHIC] [TIFF OMITTED] T2728.053
    
    [GRAPHIC] [TIFF OMITTED] T2728.054
    
    [GRAPHIC] [TIFF OMITTED] T2728.055
    
    [GRAPHIC] [TIFF OMITTED] T2728.056
    
    [GRAPHIC] [TIFF OMITTED] T2728.057
    
    [GRAPHIC] [TIFF OMITTED] T2728.058
    
    [GRAPHIC] [TIFF OMITTED] T2728.059
    
    [GRAPHIC] [TIFF OMITTED] T2728.060
    
    [GRAPHIC] [TIFF OMITTED] T2728.061
    
    [GRAPHIC] [TIFF OMITTED] T2728.062
    
    Mr. Shays. Thank you, Ms. Porter.
    Dr. Gilman.
    Dr. Gilman. Can I show my slides from the podium?
    Mr. Shays. Yes, fine. And as we pick you up in the mic, 
that is fine.
    Dr. Gilman. OK.
    Mr. Shays. And we will see it on this TV screen here, I 
guess.
    Dr. Gilman. Mr. Chairman, first, if I could just go over 
the elements of EPA's response to the events of September 11th.
    EPA in its emergency response capability activated its 
emergency response team within minutes of the attack and sent 
on senior coordinators to begin collecting bulk dust and air 
samples, both at the site of the World Trade Center and 
subsequently on the 11th to areas of New Jersey and Brooklyn as 
well.
    In the days following September 11th we began to establish 
a fixed air monitoring system which ultimately consisted of 20 
different monitoring stations in addition to the network of 
monitoring stations that are in place for activity such as 
monitoring for particulate matter under the Clean Air Act.
    EPA's principle mission immediately following the collapse 
was to address the safe collection and disposal of large 
amounts and quantities of dust and debris. And along with other 
Federal agencies, my colleagues here today, supplying 
respirators and protective gear to workers and truck operators 
for Ground Zero.
    EPA had subsequently been asked by the city to initiate its 
residential clean up program, which began in May of last year. 
And we continue to perform laboratory health effects research 
on dust and other contaminates from the World Trade Center in 
our effort to try and better understand the health consequences 
of that day.
    In that regard, let me speak to you about our draft 
exposure and human health evaluation which was released in 
December of last year. It is currently undergoing peer review 
and response to that peer review. And let me start by saying a 
few things that--I will start by saying what the report does 
address and then what it does not address.
    The draft report does focus on outside air. It focuses on 
the general public.
    It highlights six particular contaminates that we believe 
were most important to assess. It also tries to look at what 
the human exposures to the contaminates were. As you know, a 
contaminate may have a health effect, but just what kind of 
health effect it has depends on how much an individual is 
exposed to of that. So we are trying to assess how much 
individuals were actually exposed to these contaminates.
    We discussed the potential health impact of those 
contaminates and utilized the data that was available at that 
time.
    The draft report does not address indoor air except 
incidentally. It doesn't address first responders at Ground 
Zero. It doesn't assess residential or occupational exposures. 
And it doesn't predict human health effects, nor does it 
purport to examine all the different contaminates that were 
found at the site at the time.
    Now, let me generally give you the findings of the report, 
then we can talk a little bit of the specifics of the 
contaminates in question.
    First of all, people exposed to extremely high levels of 
outdoor pollutants on September 11th at the time of the 
collapse in the vicinity of the World Trade Center are at risk 
for both acute and potentially long term or chronic respiratory 
and other types of health impacts.
    We found that the information available on September 11th 
and in the days following did not really allow us to well 
characterize this particular period of exposure and the 
potential health effects. Except for exposures on September 
11th and possibly during the next few days, we did find that 
the people in the surrounding community were unlikely to have 
been exposed to contaminates in a way that would result in 
either short term or long term adverse health effects.
    Now, the status of the report is, that is currently draft. 
It is going through revisions and we hope to have it finalized 
in the spring of 2004.
    The contaminates we looked at included particulate matter, 
asbestos, dioxins and PCBs, metals and volatile organic 
compounds.
    For the particulate matter, in the several days after the 
attack monitors were showing high levels of particulate matter 
that did exceed the EPA's 24 hour air quality index, but by 
mid-October those levels had receded to ones historically seen 
in the city.
    For asbestos, there were reactively few outside air 
measurements of asbestos that exceeded EPS or OSHA standards.
    And I should comment that for all of these substances we 
are hampered to some degree by the fact that we had not in the 
past expected to have to look at short term exposures. So the 
benchmarks we are utilizing in doing this analysis are borrowed 
from the occupational agencies and other circumstances. EPA has 
traditionally focused on longer term chronic exposures.
    So for asbestos, the air measurements taken. There were a 
few exceedences of EPA and OSHA standards. High levels of 
asbestos were found in dust in two apartments sampled on the 
18th and in the grab samples that were done in the area of the 
World Trade Center.
    The report also does discuss the ATSDR study that was done 
on apartments beginning in the November timeframe.
    Dioxins and PCBs, there were high measurements in the first 
month after September 11th, in particular in and around the 
World Trade Center Ground Zero site. Exposures by inhalation of 
dioxins in particular were not at a level that should cause 
either acute concerns or long term concerns. The major path for 
dioxins of concern is really through ingestion, through food 
exposures.
    For metals, there were some exceedences of EPA benchmarks 
for lead in the first month, but the way the lead standard is 
set is it is for exceedences that extend over a 90 day period, 
and we did not see anything like that for the lead at the site 
or in the areas surrounding the site.
    And last, for volatile organic compounds, we did see 
elevations principally of benzene over the month following the 
Trade Center, but none of those exceeding benchmark standards.
    Now let me speak for a moment to our efforts at trying to 
reconstruct the exposures that people have seen. What I have 
here on this screen is actually a graphic of reconstruction of 
the plume for the first days following the collapse of the 
World Trade Center. It is animated, and as you can see through 
time the wind direction did shift.
    This is the standard sort of a tool we have available to us 
today. It is based on meteorological information that comes to 
us from sites like LaGuardia Airport or Kennedy Airport. And 
currently the Department of Energy and NOAA are engaged in 
putting place systems in a number of cities around the country 
that are much fine scaled, if you will. Where the 
meteorological information that is collected is much better 
represented for the areas in question.
    EPA is currently engaged in collaborating with them, and 
what we are actually trying to do is apply some tools we had 
begun to develop in midtown New York. We are trying to better 
understand how people living in a urban setting are exposed to 
normal pollutants.
    What we have done with what is a computer model, a 
numerical model, is now transfer that work to the lower end of 
Manhattan and try and computationally understand how the 
particles and emissions flowed in the area in and around the 
World Trade Center. And so this is a visualization now of that 
kind of modeling.
    The field that is moving through shows you the different 
directions and volicities of the wind, the different points 
along the southward movement at the World Trade Center.
    And we are using this model along with an actual physical 
scale model that was done for lower Manhattan at our research 
facility in Research Triangle Park to work back and forth 
between the physical model, a wind tunnel model of lower 
Manhattan, and that computational model that I described. And 
this is a scene of gases, simulated gases being released at the 
World Trade Center site.
    The result of moving back and forth between this kind of 
physical model and computational model is that we can begin to 
recreate exposures at the time of the collapse and in the few 
days following that we cannot do from actual measurements. So 
what you see here is a recreation of concentrations of no 
particular pollutant. We have yet to go back and plug in to 
these models actual omissions data. But what this represents 
is, and let me explain the different so called ``isolines,'' 
lines of common concentration.
    The yellow circle in and around the World Trade Center site 
represents the highest concentration. The green line with the 
No. 10 on it would represent a 10-fold reduction in the 
concentration of a contaminate. And the blue line, a 100-fold 
in the contaminate. Also marked on this map is the area that 
represented the exclusion zone in the initial phases of the 
disaster. We have also done this now for one other wind 
direction, and we are continuing to expand that.
    Our hope is using a model like that and also, again, a 
computational approach to understanding what happened 
immediately as the World Trade Center collapsed, we will be 
able to recreate the exposure levels that people were exposed 
to.
    What I have here is a computer generated model. This is not 
an animation. This is actually a calculation done of the 
collapse of one of the buildings at the World Trade Center. And 
it is through this type of modeling that we hope to be able to 
combine the physical model that I showed you, the numerical 
model and begin to better estimate the exposures that people 
present at the time of the collapse and first responders were 
subjected to.
    Let me now summarize for you some of the things that the 
EPA has done since the World Trade Center in an effort to 
improve our response capability. We have updated and revised 
our national approach to response. We have expanded our 
training and incident response. We have built a more 
sophisticated and larger emergency operation center. We have 
established both at headquarters and in the regions a support 
corps. Actually back up folks for our trained professional in 
emergency response.
    We have also purchased special communications and 
monitoring equipment that would overcome some of the 
difficulties we had in establishing a monitoring network in the 
case of the World Trade Center. We have established another 
emergency response team, national emergency response team in 
the west. And we have created a Homeland Security Research 
Center to develop the kinds of technologies and first responder 
computer tools that I have been trying to show you here today.
    Those rapid risk assessment tools, we believe, can help 
with preplanning for first responders.
    We have also developed a scientific response team that will 
be available to both first responders and EPA decisionmakers 
for future events.
    We have also been trying to improve those models, as I 
showed you, on air transport.
    And also, we have upgraded our laboratory capacity to serve 
as a backup to the Department of Defense when it comes to 
biologicals and other agents.
    And I will stop there, Mr. Chairman.
    [The prepared statement of Dr. Gilman follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.063
    
    [GRAPHIC] [TIFF OMITTED] T2728.064
    
    [GRAPHIC] [TIFF OMITTED] T2728.065
    
    [GRAPHIC] [TIFF OMITTED] T2728.066
    
    [GRAPHIC] [TIFF OMITTED] T2728.067
    
    [GRAPHIC] [TIFF OMITTED] T2728.068
    
    [GRAPHIC] [TIFF OMITTED] T2728.069
    
    [GRAPHIC] [TIFF OMITTED] T2728.070
    
    [GRAPHIC] [TIFF OMITTED] T2728.071
    
    [GRAPHIC] [TIFF OMITTED] T2728.072
    
    [GRAPHIC] [TIFF OMITTED] T2728.073
    
    [GRAPHIC] [TIFF OMITTED] T2728.074
    
    [GRAPHIC] [TIFF OMITTED] T2728.075
    
    Mr. Shays. Well, Dr. Gilman, you have given us a lot to 
think about and you will generate a number of questions by your 
presentation. Thank you.
    Ms. Clark.
    Ms. Clark. Mr. Chairman, members of the panel. Thank you 
for this opportunity to discuss OSHA's role in protecting 
workers after the tragic events of the World Trade Center on 
September 11th.
    I am the Regional Administrator for Region 2, OSHA, which 
covers New York, New Jersey, Puerto Rico and the Virgin 
Islands.
    OSHA's mission is to ensure safe and healthful working 
conditions for employees in this Nation. Within hours of the 
attack, OSHA joined with other Federal, State and local 
agencies, as well as safety and health professionals from 
contractors and trade unions onsite, to help protect workers 
involved in recovery, demolition and clean up operations. 
Working under perilous conditions, OSHA began coordinated 
efforts to protect the health and safety of workers.
    In line with the Federal Response and National Contingency 
Plans, OSHA determined it could be most effective by providing 
assistance and consultation. It was apparent the site was not a 
typical construction or demolition project. Workers needed 
immediate protection from hazards, the scope and severity of 
which were unpredictable.
    OSHA's primary responsibilities were to conduct personal 
air monitoring to characterize exposure, distribute and fit 
respirators along with other personal protective equipment, and 
conduct safety monitoring. OSHA committed nearly 1100 staff, 
sometimes as many as 75 a day. Our employees remained on the 
site for 10 months providing a 24-hour presence, 7 days a week. 
Our staff spent more than 120,000 hours onsite. We conducted 
over 24,000 analyses of individual samples to quantify worker 
exposure. We collected more than 6,500 air and bulk samples for 
asbestos, lead, other heavy metals, silica, other inorganic and 
organic compounds totaling 81 different analytes.
    Personal sampling was conducted around the clock each day 
and coordinated with safety and health professionals onsite. 
OSHA's sampling efforts included breathing zone samples of 
workers on and near the pile. The tasks included search and 
recovery, heavy equipment operation, steel cutting and burning, 
manual debris removal and concrete drilling and cutting.
    OSHA's breathing zone samples showed exposures that were 
well below the agency's permissible exposure levels for the 
majority of chemicals and substances analyzed.
    To ensure that workers were fully informed about the 
potential risks, we employed several means to disseminate the 
information. We distributed sampling summaries to trade unions, 
site contractors and agencies during daily safety and health 
meetings. Personal sampling results, including an OSHA contact 
number were mailed directly to worker. Those whose sample 
results exceeded the PEL were encouraged to seek medical 
consultation. We also posted these results on our Web site 
within 8 hours.
    OSHA consistently recommended workers on the site wear 
appropriate respirators. The respirators were selected jointly 
with all the site safety and health professionals. We agreed on 
a high level of protection. A half mask, negative pressure 
respirator with high efficiency particulate/organic/vapor/and 
acid gas cartridges. This was communicated through orders and 
notices posted throughout the sites. And you will see a number 
of exhibits labeled No. 1 through No. 8, as well as the poster 
in the front showing this.
    OSHA continued to conduct extensive risk assessment to 
verify the selected respirators remained appropriate. When 
sample results for jack hammering and concrete drilling 
operations indicated a higher level of protection was needed, a 
full face piece respirator was required for those operations.
    Shortly after the attack, OSHA became the lead agency for 
respirator distribution, fitting and training. At the peel of 
the operation, basically the first 3 weeks, we gave out 4,000 
respirators a day. We distributed more than 131,000 during the 
10 month recovery period.
    Mr. Shays. Could you repeat that number again? How many?
    Ms. Clark. 131,000 in the 10 months.
    Distribution to workers did pose challenges. OSHA initially 
deployed staff by foot with bags of respirators. We followed 
this up by mobile teams on all terrain vehicles, as you will 
see in exhibit 9.
    We also established a distribution point at the Queens 
Marina, which was the fire department of New York's staging 
point. We opened multiple equipment distribution locations 
throughout the 16 acres site. You will see two of those in 
exhibits 10 and 11.
    OSHA conducted over 7,500 quantitative fit-tests for 
negative pressure respirators, including nearly 3,000 for FDNY 
personnel specifically. You can refer to exhibit 12 for that. 
Fit-testing included instruction on storage, maintenance, the 
proper use and the limitations of respirators. 45,000 pieces of 
other protective equipment were given out as well, such as hard 
hats, glasses and gloves.
    We are also proud that despite this highly dangerous rescue 
and recovery mission there was not one fatality. More than 3.7 
million work hours were expended during the clean up operations 
with only 57 non-life threatening injuries. This is really 
remarkable given the nature and the complexity of the site.
    The key to success was working in partnership. A joint 
labor management safety and health committee was established to 
identify hazards and recommend corrective actions. And 
unusually high level of safety and health oversight, training 
and direct involvement of workers resulted.
    Union stewards met weekly with us and with the other 
agencies and their employees. They distributed safety bulletins 
directly to their workers and they held tool box talks. OSHA 
and the Center to Protect Workers Rights of the AFL-CIO 
collaborated to provide mandatory safety and health training 
for all the workers on the project.
    We learned a great deal at the WTC site, lessons that can 
help the agency and the Nation improve emergency preparedness. 
Employers must regularly review and practice evaluations. Also 
essential to establish channels of communication prior to an 
emergency.
    Nationwide, OSHA's reaching out to the entire emergency 
response community and coordinating this with the Department of 
Homeland Security. One of the goals in this is to ensure that 
first responders wear properly fitted and maintained 
respirators at work sites that may have toxic releases.
    The agency is also working in partnership with the CPWR to 
provide skilled support personnel with the training to ensure 
that America has a work force that is prepared to safely 
respond to national emergencies.
    Mr. Chairman, in addition to my concern for workers at the 
WTC site, I have personal interest in the short and long term 
effects of exposures because my staff and I spent so much time 
there, 10 months. Our Manhattan area office was destroyed when 
the North Tower of the WTC collapsed on our building. During 
evaluation our employees were exposed to all of the same 
potential contaminates in the atmosphere as others who were in 
lower Manhattan that day. I can say with confidence and pride 
that OSHA's staff did everything humanly possible to protect 
the workers during their recovery efforts.
    Thank you.
    [The prepared statement of Ms. Clark follows:]

    [GRAPHIC] [TIFF OMITTED] T2728.076
    
    [GRAPHIC] [TIFF OMITTED] T2728.077
    
    [GRAPHIC] [TIFF OMITTED] T2728.078
    
    [GRAPHIC] [TIFF OMITTED] T2728.079
    
    [GRAPHIC] [TIFF OMITTED] T2728.080
    
    [GRAPHIC] [TIFF OMITTED] T2728.081
    
    [GRAPHIC] [TIFF OMITTED] T2728.082
    
    [GRAPHIC] [TIFF OMITTED] T2728.083
    
    [GRAPHIC] [TIFF OMITTED] T2728.084
    
    [GRAPHIC] [TIFF OMITTED] T2728.085
    
    [GRAPHIC] [TIFF OMITTED] T2728.086
    
    [GRAPHIC] [TIFF OMITTED] T2728.087
    
    [GRAPHIC] [TIFF OMITTED] T2728.088
    
    [GRAPHIC] [TIFF OMITTED] T2728.089
    
    [GRAPHIC] [TIFF OMITTED] T2728.090
    
    [GRAPHIC] [TIFF OMITTED] T2728.091
    
    [GRAPHIC] [TIFF OMITTED] T2728.092
    
    [GRAPHIC] [TIFF OMITTED] T2728.093
    
    [GRAPHIC] [TIFF OMITTED] T2728.094
    
    Mr. Shays. Thank you.
    Before recognizing Mrs. Maloney, I want to say that this 
has been very important testimony, and there will be some tough 
questions to follow, but I wish some of this information had 
come out sooner. And I will say to you, Ms. Clark, I think our 
previous panel, some of the witnesses to make sure that your 
work of your agency was recognized. Because you were in the 
thick of it.
    And I am also going to say that in the first day or two we 
probably needed the respirators more than later. But I know the 
mentality of everyone there; they just wanted to do whatever 
was necessary to get the job done. And I hope we do not forget 
what motivated people in those first few days. It was not about 
their own safety, it was just see if we can find anyone who is 
still alive. And we know that.
    And I am also going to say that we are all Americans here. 
We love our country and we love the people who serve it, and we 
love the people who were involved in this effort. And we are 
just going to look backward and go forward.
    And so, with that, I am going to first recognize Mrs. 
Maloney. I am going to then go to Mr. Turner, then to Mr. Owens 
and then to Mr. Nadler. We might have a second round if it is 
deemed necessary or partly that.
    And so, Mrs. Maloney, you have the floor for 10 minutes. I 
am not going to let you ask a question and in the 10th minute 
that takes them 5 minutes to then respond to. I am going to 
keep you to the 10.
    Mrs. Maloney. OK. Thank you, Mr. Chairman. And I thank all 
of the panelists for your testimony and your hard work.
    If you were here earlier, I asked a question of the first 
panel. I asked them if they thought the Federal Government was 
doing all that they should or could do to respond to September 
11. And everyone raised their hand saying that they did not 
believe that enough had been done, and then they said what they 
thought should be done.
    I would like to ask you the same question and to respond 
with what you think Congress should be doing or the Government 
should be doing to respond to the disaster of September 11. And 
be very short and go right down the line, starting with Ms. 
Porter and going straight down, or Dr. Williamson.
    Ms. Porter. I think related to the health issues of workers 
that it is critically important that the screening program, 
which is underway, be continued and be funded for the long 
term.
    I think that in addition funds for treatment would be 
appropriate, as would funds for research studies that could be 
done.
    Last, I think that having listened to the first panel, it 
is really important that we sort out the workers compensation 
issue.
    Mrs. Maloney. Yes.
    Dr. Wagner.
    Dr. Wagner. In our particular arena, I think the efforts at 
getting our emergency response teams prepositioned, trained and 
properly equipped are underway. We need to complete that.
    We continue to support research both in the short run for 
better understanding of what took place in terms of human 
health at the World Trade Center, and more broadly for other 
potential terrorist attacks for the future.
    Mrs. Maloney. OK. Ms. Clark.
    Ms. Clark. I think it's essential that we not lose focus 
about what happened here and that we not forget and do not 
plan. Planning is absolutely essential. Emergency preparedness 
is all about using the things that we learned here; what went 
right, what went wrong and try to work on these.
    I think working with the respirator community on having 
respirators that are more likely going to be worn by workers is 
very important.
    Working with the responders to make sure that they are 
comfortable with respiratory protection. Prior to September 11 
they really were only accustomed to the self-contained 
breathing apparatus, the scuba-like tanks. They did not know 
what negative pressure respirators were, and that was a 
problem.
    And we are working very hard with those groups.
    Coordination, collaboration and let us not forget that we 
have to keep working on this issue. I think that is absolutely 
essential. We can all do more in that regard.
    Mrs. Maloney. Ms. Porter, if you heard the first panel, I 
would like to place into the record a series of questions 
really on the funding. The funding for the monitoring was a 
bipartisan effort, along with Senator Clinton and Senator 
Schumer and others. And Mr. Shays and Mr. Turner all supported 
it. Yet what we heard from the first panel is they are not 
getting the money. The fire department says they're not getting 
the $25 million to continue their monitoring and treatment, and 
Mount Sinai does not know if there will be a disruption in 
their screening program. They have people on the waiting list 
trying to get in to be screened.
    And I am sure you heard the comments that they felt the 
central registry, both in Mount Sinai and the city, was more 
effective in compiling the data for future research. I 
understand you have plans to market it out to different areas 
around the city, or whatever. And this might be problematic.
    And my overall question is why can't they get the funding? 
We voted on this months ago. This was a bipartisan effort. It 
was signed into law. And they are still telling us they do not 
have the money.
    Ms. Porter. Right. The funds were transferred to us from 
FEMA on June 17th. And 6 days subsequent to that, we provided 
funding to the Mount Sinai Clinic to extend the baseline 
screening work, which was what was deemed appropriate after the 
May 2nd meeting that we had, which we had, by the way----
    Mrs. Maloney. But the continued funding, the $25 million 
and the continued $90 million.
    Ms. Porter. Right. And then on 10 days, subsequent to 
receiving the funds, we provided--we signed a contract with the 
New York City Fire Department. And, unfortunately, we have in 
working together with the fire department, learned that we want 
to encourage firefighters to participate in the program, ensure 
the quality of the data as well as the consistency of the data 
with the other screening programs so that it's utility over 
time is there. And, unfortunately, we determined that the 
contract mechanism was not the appropriate mechanism to use, 
even though it got the money out there quickly, it meant that 
the Government had to have the data. In other words, the data 
was transferred to us. The fire department was concerned about 
that issue related to confidentiality.
    Mrs. Maloney. Well, I would like to work with you in a 
future meeting on how we can get these funds released and out 
of Washington.
    Ms. Porter. Right. Right.
    Mrs. Maloney. And into where they were designated.
    Dr. Gilman, as I mentioned, that there was an article today 
in the Daily News where they talk about a memo that came out 
directly after September 11 saying that it was a health crises, 
it was detrimental to the health of people, that they should 
not return to the area, should not be in the area. And I do not 
know if you have read the article, but it is a scientific----
    Dr. Gilman. Juan Gonzalez' column.
    Mrs. Maloney. Juan Gonzalez' column, but a scientific 
expose, basically saying that there was not a response.
    Just in walking outside for a moment, several people came 
up to me, including one reporter, who said they were at Ground 
Zero. The catastrophe happened on Tuesday, but it was not until 
Saturday before any monitoring notice was put up saying that 
the air could be problematic. That there was no monitoring 
notices put up until Saturday.
    You said in your testimony that you responded immediately, 
yet they are telling me nothing was put out publicly to them 
until Saturday. And according to Juan Gonzalez' article, the 
scientific analysis that was done was not responded to.
    Because he is going to cut me off I know, I just want to 
say that at this map that you showed of the plume going out and 
where it was the most problematic, I quite frankly was 
surprised to see that the area that we the most infected really 
was in Brooklyn in the plume that went out from the study.
    So I would like to know if you have any data, Ms. Porter or 
others, on the emergency rooms that responded on September 11, 
particularly from Brooklyn hospitals after September 11? 
According to that plume, there should have been more medical 
problems in Brooklyn, and I have been told through hearsay from 
medical doctors that there were huge increases in admission for 
adult asthma and general respiratory problems after September 
11. In Brooklyn, as much as 23 percent. I do not know if there 
is any historical data on that. But if you could get back in 
writing to me on it, if we do not have the time.
    But, Dr. Gilman, what they are telling me out there 
including reporters, they are saying I was down at Ground Zero. 
There was nothing put up telling us that there was a health 
problem from EPA until Saturday, clearly many days after the 
disaster?
    Dr. Gilman. Well, let me start by saying your 
interpretation of the graphics is incorrect. The first two 
photos appended to the testimony actually show the greatest 
concentration in the immediate vicinity of the World Trade 
Center, not Brooklyn in fact.
    Mrs. Maloney. But this one, the impact after days. Is that 
not Brooklyn. This graph, this plume study.
    Dr. Gilman. The plume study, yes.
    Mrs. Maloney. That is Brooklyn.
    Dr. Gilman. And that is not the dust plume, but that would 
be the plume from fires and the different concentrations are 
color coded there with the greatest concentration being in 
close in the red area. And there is no question that in the 
first hours and probably all the way through to the second day, 
there were debris from the World Trade Center found in 
Brooklyn, as the representative from the New York Department of 
Health was saying. The question was where were the 
concentrations the greatest, where was the greatest concern for 
exposures to people.
    As far as information available to the folks at Ground 
Zero, the EPA and other Federal agencies were getting together 
within 24 hours of the event and trying to sort out----
    Mrs. Maloney. But they are saying no notices were put up. 
We have an example of a notice here for safety.
    Dr. Gilman. Well, I do know----
    Mrs. Maloney. But nothing was put from EPA saying that this 
is a dangerous zone, watch out for your health. That there was 
no air monitoring reports to the public until Saturday. That is 
what they are telling me.
    Dr. Gilman. Well, two different things.
    Mrs. Maloney. OK.
    Dr. Gilman. The public at large and the people located at 
Ground Zero and at the site of the collapse, the World Trade 
Center, EPA professionals as well as other agencies were 
telling people at the site that it was a dangerous place in 
terms of what was being breathed. And so the advice throughout 
was, as offered by OSHA and others, was to use respirators.
    The question of what was being said to the public, you 
know, I cannot speak to the availability of flyers or not. But 
I can speak to the fact that there were oral communications 
with the city, with the workers on the part of, I think, all of 
our agencies about the danger at Ground Zero.
    Mrs. Maloney. My time is up. Thank you.
    Mr. Shays. And we will be able to ask a few more questions 
here, so it is not your last chance here.
    We are going to go to Mr. Turner.
    Mr. Turner. As the Nation watched the tragedy of the World 
Trade Center collapsing, I do not think that there is an 
individual who witnessed that, either on television or here in 
this community, who did not intuitively understand that there 
were health impacts and that there were health concerns as a 
result of those towers collapsing. It does not take an EPA 
report or an OSHA report for all of us around the country 
immediately to have understood the health struggles of those 
who were both responding and who were fleeing the tragedy. We 
saw them all on television, we read them in our newspapers. And 
scientific analysis was not really needed for us to initially 
understand that the people who were responding were doing so as 
true heros and in peril of their own safety.
    Dr. Gilman, I have some questions concerning the EPA's 
jurisdiction. There have been some questions concerning the 
EPA's actions during this time period. And I am assuming that 
there is a regional air pollution control agency in this area 
other than just the Federal EPA or other air control agencies 
or monitoring agencies present in the New York area, are there 
not?
    Dr. Gilman. The way the Clean Air Act is it really is a 
partnership.
    Mr. Shays. I am going to ask you use one mic and we will 
just have one mic directly in front of you.
    Dr. Gilman. It really is a partnership under the Clean Air 
Act with State government and the Federal Government. And so, 
for example, some of the monitors I mentioned that were used 
that were already in place for purposes of the Clean Air Act 
are ones that are not operated by the Federal Government.
    Mr. Turner. So this information was readily available to 
the State agencies and perhaps even the local agencies, not 
just merely handled or controlled under EPA?
    Dr. Gilman. Yes. And we did create a Web site quickly. It 
was actually up and functioning by about, I believe it was 
September 26th to provide general access to the public for the 
information as well.
    Mr. Turner. In your testimony and the slides you gave us, 
you mentioned the nationwide air monitors that were already 
were in place that were staked, that you were coordinating with 
the EPA. Then you go on to say that the EPA established 20 
World Trade Center air sampling stations. Now, I am assuming 
that information was not solely in the control of the EPA when 
these stations would report. Who else would have had the 
information that was coming from these stations?
    Dr. Gilman. Well, there was a task force put together of 
State, city and Federal agencies that were all trying to share 
that information. A data base was created. I do not know the 
exact date at which it was up and running for sharing among the 
different agencies. But, as I say, the publicly available site 
was up by September 26th. Maybe Kat Callahan of Region 2's 
office can----
    Mr. Turner. My basic point, though, in asking about who had 
access to this information is that there has been some 
perception that somehow the EPA or others might have controlled 
the spin of the dissemination of this information. And it is my 
belief that this information would have been much more widely 
available to State, local agencies so that it would not have 
been able to be controlled by the EPA or others in its 
dissemination or spin, if you will.
    Dr. Gilman. Why do we not have Kathy Callahan, who was in 
charge of this effort for our Region 2 office----
    Mr. Shays. You got your own mic.
    Mr. Turner. And I hope my time will be extended while we do 
all this.
    Mr. Shays. No, we do not need mics. We are all set. 
Everybody has a mic. I am losing control.
    I would like you to tell me your name, your title and then 
answer the question.
    Ms. Callahan. I am Kathleen Callahan. I am from EPA's 
Region 2 office. And I am the Assistant Administrator for 
Response and Recovery in New York City operations.
    Mr. Turner. Yes.
    Ms. Callahan.
    And to answer the question of who had access to what 
information. On September 12th we established, and it began the 
afternoon of the 11th, but we began our first of many, many 
conference calls with agency representatives from the Federal 
Government, from State government, from city government. 
Initially, actually, from the private sector as well because 
they were taking samples. And we exchanged sample results among 
that group and consulted on what to do next and what the 
implications of those samples were.
    In addition to that, everyday the emergency operations 
committee that was established uptown, which had 
representatives from a broad base of Federal agencies, State 
agencies, city agencies had morning meetings at which, you 
know, data results were provided. Evening meetings to see if 
there was anything new to add. And downtown there was a daily 
meeting at which sample response results were provided and 
health and safety issues were also--everyday.
    Mr. Turner. So the analysis of this information, the 
dissemination of it, the reporting of it to the community was 
not solely controlled by one point or one agency?
    Ms. Callahan. Absolutely not.
    Mr. Turner. Mr. Gilman, in looking at the information that 
you had--Dr. Gilman, excuse me. If you look at the information 
that you have concerning EPA's indoor air monitoring and 
cleaning program, one of the misconceptions that I heard during 
panel one was that the EPA had a mandated responsibility to 
clean up all of the buildings and the apartments that were 
around the World Trade Center. And when I read your testimony 
it talks about a request that you received from New York City 
and your response, and a voluntary program where you went to 
individuals that were in the area and provided some services. 
And there may be some criticism or question as to the 
effectiveness of your program. But I just want to touch on the 
point of whether or not you were legally mandated to clean up 
the results of the World Trade Center collapse?
    Dr. Gilman. I will defer to Kathy in a moment, but I will 
say that under an emergency response and under the emergency 
response plan, different responsibilities get divided up among 
the different agencies. In the case of the indoor air, the 
initial responsibility went to the city of New York. 
Subsequently, the city asked the EPA to become more involved 
and ultimately to take over the testing and clean up program 
that was begun in May 2002.
    Kathy, do you want to add?
    Ms. Callahan. That is absolutely accurate. And I think that 
in addition to that, the underpinning of our sort of 
statutorial authorizations is important. The Stafford Act is 
what defines sort of the agency's funding and statutory 
opportunities to respond to a federally declared disaster. And 
so EPA was operating under the Stafford Act.
    In addition, EPA operates under the SuperFund law and the 
national contingency plan regulations that support that law in 
supporting its role within the Federal Response Plan and in 
support of the Stafford Act.
    Mr. Turner. Could you expand your answer related to 
testing, but specifically with the area of clean up. I mean, it 
is the same. Your testimony was that both testing and clean up 
concerning the program was not something that EPA was mandated 
to do internally in individual dwelling spaces. Is that 
correct?
    Ms. Callahan. The National Contingency Plan and the 
SuperFund law, which is part of what we are responding under, 
authorizes EPA to undertake certain actions. But there are a 
lot of criteria that are applied in exercising the judgment so 
that we determine when we proceed on that authorization. And in 
a federally declared disaster, we do that in the context of a 
Federal Response Plan and the Stafford Act as well. And so it 
is not, per se, a directive to conduct certain activities. It 
is an authorization to conduct them given the agency's 
evaluation of the appropriateness in the response.
    Mr. Turner. Ms. Porter, when you talked about the different 
baseline medical screening and the data bases that were being 
created, we have a split that is happening between the New York 
Fire Department's baseline screening, what Mount Sinai is doing 
for those individuals who responded to the site, worked on the 
site but were not necessarily members of the fire department, 
and then we also have what the health department is doing with 
individuals that live in the area.
    What is your assessment of the coordination of those 
programs and what advice might you have in that area?
    Ms. Porter. I think currently there is a steering group 
where, as you heard them testify, all Mount Sinai sits on the 
fire department's steering council as does the fire department 
sit on Mount Sinai's group. And so there is coordination.
    Could there be better coordination? Always. And I think 
that as we construct the longer term program, we will actually 
mandate in the announcement a steering group that will be 
constituted and funded through that mechanism.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    At this time the Chair would recognize Major Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    I would like to begin by getting some clarification from 
Mr. Clark, since they distributed the largest number of 
respirators. Can you clarify the terminology? There were some 
workers who said they never had anything for the first few 
weeks but paper masks. Is that a respirator, a kind of 
respirator? You mentioned half mask, full mask; there are two 
categories. Are there other categories? Do people mistakenly 
call it something else, the respirator?
    Ms. Clark. I can talk about what we provided. And we did 
this under the auspices of the New York City Department of 
Health.
    We offered that we would take over the respirator 
distribution and fit checking and fit-testing eventually 
process for them. And we did so. Prior to that the New York 
State Department of Labor, Public Employee Safety and Health 
Program as early as the 12th were involved with handing out 
respirators.
    I mentioned that as a group all the safety and health 
professionals on the site got together very early on, after the 
first couple of days, and determined that because the site was 
so unpredictable and we were not able to determine exactly what 
the exposures to the workers might be, we would go to a high 
level of protection. And that was the half faced piece negative 
pressure respirator with the three types of cartridges. The 
high level particulate filter that would be appropriate for 
things like asbestos or silica or other particulates. An 
organic vapor that would be for things that might be coming out 
of the fires, the plumes and acid gases that also might be in 
that context.
    Those are the three major categories of----
    Mr. Owens. So this is one mask you are talking about with 
three different internal components that can be adjusted?
    Ms. Clark. Three large--it has a very large canister. In 
fact, in your exhibits, and I think it is exhibit 7 or 8, you 
will see two of my compliance officers who were onsite wearing 
the respirator with that cartridge on with the triple 
cartridges.
    That is what we felt was appropriate, and we continued to 
do so until we found some of the higher levels in particular 
operations. And then we said not just a half faced respirator, 
but one that is full faced for people who were doing jack 
hammering or some of the core drilling operations you need a 
higher level of protection that is afforded by that kind of 
respirator.
    Those were the kinds of respirators that were provided us 
through the city of New York. They got contributions from all 
over the country, our Assistant Secretary called equipment 
manufacturers of respirators early that first week asking for 
donations. Those were all provided. The city bought a lot of 
respirators.
    In addition, contractors and unions also brought 
respirators to the site. Very early on, though, the site safety 
and health mandated, as you can see by the signs and in some of 
the exhibit, that type of respiratory protection, that high 
level. And that is what we were involved with using.
    Mr. Owens. Are you familiar with the mask that Members of 
Congress have been given. All our offices have a certain supply 
of masks. I think they are called gas masks. Maybe that is a 
popular term. Are they same as respirators? Are you familiar 
with the model that are distributed to Members of Congress.
    Ms. Clark. A mask, some people do use the term gas mask to 
refer to a type of respirator. I am not familiar specifically 
with the ones that you may have in your offices. No, I am not. 
I am happy to work with you if you would like to have a 
separate consultation on that.
    Mr. Owens. Before I go any further, I just want to 
congratulate OSHA for the magnificent job they did. You were as 
much a victim in many cases. Your whole agency wiped out, as 
other people were. Your heroism is to be--certainly you are to 
be congratulated for that. But I hope your experience can be 
used for the future.
    And one of the items that you anticipated where I was 
going, is there a problem with a supply of respirators in the 
country, manufacturers? Is there a problem the technology of 
respirators when they are so clumsy that people do not want to 
wear them? They do not feel that they can work in them and wear 
them. Are we on top of a respirator crises or was there a 
respirator crises?
    The city certainly did not have enough. You said they had 
to get them from various sources. The Federal Government did 
not have any, otherwise you would not have to turn to the city. 
I mean, you had no procedure for a large number of masks that 
you could reach and pull into the situation right away.
    Ms. Clark. There actually was a large number, a cache of 
respiratory protection in the city itself. We did lose our own 
office, our Manhattan area office. So all of our people were 
without. I am very fortunate that my regional office is a mile 
and a half north of the city. We did have some respirators 
there. We also have----
    Mr. Owens. You have respirators stored in your office?
    Ms. Clark. Yes. Yes. And we had enough for the Federal 
community. We also certainly consider your concern about 
lessons learned issues on respirators. This is clearly one of 
the major issues that has come up. And we're working on that in 
a number of ways.
    Under the Department of Homeland Security we are working 
with them to establish caches of equipment around the country 
including respiratory and protective equipment.
    Goggles, the dust on the site was also very intense. And 
that was appropriate to have eye protection as well.
    And so these caches will have that kind of equipment and 
they will be located throughout the country.
    We are also working with the equipment manufacturers, the 
respirators especially, to determine what their turnaround time 
is to put more respirators out if we need them and where can we 
get them, and how can we get them to the site. If the issue is 
in lower Manhattan, how can we get them there very quickly?
    The National Guard and all of the other groups that were 
very helpful in our supply route was very essential of that. 
But that is part of our preparedness that I talked about before 
this. So essential.
    Mr. Owens. It is recognized that we need a system for 
dealing with supplies of respirators.
    Ms. Clark. Absolutely.
    Mr. Owens. And that system is in process at this point?
    Ms. Clark. Yes.
    Mr. Owens. Being developed?
    Ms. Clark. Yes.
    Mr. Owens. One other question. At least one person 
mentioned, they used the phrase ``that OSHA was not in 
enforcement mode.'' What is the significance of that? You have 
mentioned partnership model and my committee, which is 
responsible for work force protection, I am constantly being 
assailed by the majority party about the need for partnership 
models. I generally agree that it is a good approach. But did 
that have anything to do with limiting the liability of anybody 
in terms of the city or the State, and does that have any 
impact on the callous way in which people who did get ill and 
have been effected are being treated? Did that remove any 
obligations?
    Ms. Clark. Absolutely not. As I did try to explain before, 
we were working within the guidelines of the Federal Response 
Plan and the National Contingency Plan, which provide for us to 
do consultation and assistance in some kind of catastrophic 
event such as this.
    We quickly determined that this was not a typical 
constructionsite, it was not any kind of normal situation where 
enforcement would work. The enforcement process is a very legal 
process that can take months to years to occur. That was not 
what was needed.
    What was needed was to have safety and health 
professionals, OSHA onsite, the eyes and on that site finding 
hazards, getting them corrected immediately. That is why I had 
so many people there for 24 hours a day, 7 days a week for 10 
months working with all of these other safety and health 
professionals.
    And as someone has already mentioned, it did work. We did 
not lose another life on that site during that time. And I 
think that certainly the issue of having people there, their 
presence. We had workers tell us, ``You know, these respirators 
are tough but when I see one of your people, I remember to put 
it back on. I might take it off to talk to someone or I might 
not put it on after the break, but your guy reminded me.'' I 
mean had people there telling me that.
    Mr. Owens. Yes, it is miraculous that no lives were really 
lost there. And the whole atmosphere, obviously, was conducive 
to getting the job done with minimum risk.
    Just the last question is can anybody whose brought into 
court by some of the sick workers who are looking for relief 
use your whole harmless approach as an argument, find that your 
whole harmless approach is being used as an argument against 
their being able to get compensation for their disability?
    Ms. Clark. By not using our enforcement tool, that only 
meant that we did not issue citations to the contractors. Those 
were the people who would have received any kind of citation. 
That is the only issue. And there would have been----
    Mr. Owens. The contractor cannot say in court that you gave 
them carte blanche to operate a certain way, therefore they 
cannot be liable?
    Ms. Clark. No. They certainly cannot. Because under the 
partnership agreement that you mentioned earlier, we had a very 
strong commitment that this type of respirator protection was 
part of that partnership agreement. Every contractor on the 
site, the four major contractors on the site signed it. The 
union signed it. The city agencies that were directing it. The 
FDNY and the Department of Design and Construction. We all 
signed that. We were all committed to this very comprehensive 
safety and health program that went far beyond what our 
regulations would require as far as the respiratory protection, 
the safety measures, the training. No, I think they actually 
were under a higher level of requirement, actually.
    Mr. Owens. And you do not cover the Transit Authority and 
the city and State?
    Ms. Clark. That is correct. We hold that the private sector 
and Federal employees, we--in New York State the New York State 
Department of Labor Public Safety Employee and Health Program 
covers the State and municipal workers.
    Mr. Owens. Thank you.
    Mr. Shays. We will be able to come back.
    Mr. Owens. Thank you, Mr. Chairman. I am sorry I went over.
    Mr. Shays. No, these are excellent questions. I am learning 
a lot from both the questions and from, obviously, our 
witnesses.
    In the 9 years I have chaired this committee, the only 
person I never swore in was Senator Byrd, because I chickened 
out. I do want to make sure, I think Ms. Callahan, you were 
sworn and you stood up behind. Yes, so we will just note for 
the record you are sworn in as well. I did not want to add you 
to my list. You would have been in high company there.
    At this time the Chair recognizes the gentleman whose 
district is, obviously, directly impacted though so many were.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Turner asked a number of questions or made some 
statements a few minutes ago which I think go to the heart of 
some of the questions here. And he said that the EPA does not 
have a mandate to clean up these buildings. Dr. Gilman, Ms. 
Callahan said the same, or answered the questions to that 
extent. And Ms. Callahan referred to the Stafford Act.
    Now, my impression, and let me very careful on this. It is 
not my impression. My knowledge. Is that under Presidential 
Decision Directive No. 62 signed by President Clinton in 1998, 
the EPA is mandated to clean up any building contaminated in a 
terrorist attack. Administrator Whitman testified to this 
effect before the Senate in November 2001. Acting Administrator 
Herinko testified in a recent deposition under oath that PDD 62 
applies to the World Trade Center case and to the clean up of 
building interiors. Under President Bush's National Strategy 
for Homeland Security issued in July 2002, after the World 
Trade Center, admittedly, the EPA is ``responsible for 
decontamination of buildings and effected neighborhoods'' 
following a major incident.
    Would you like to withdraw what you said a few minutes ago 
and reconfirm it under oath?
    Ms. Callahan. What I said was the exercise of our authority 
under the Stafford Act and under the National Contingency Plan, 
and I believe it is consistent with the Presidential Decision 
Directives, was a decision process. And we made those decisions 
as to what was appropriate and we feel we made them reasonably.
    Mr. Nadler. Well, let me ask you this question then. Is it 
or is it not the duty of EPA under Presidential Decision 
Directive 62, and I would say also under the CIRCLA law, but 
more importantly under PDD 62, to see to it perhaps by 
delegating to the city or to somebody else, but making sure it 
gets done one way or the other, it is your responsibility to 
see it that indoors as well as outdoors is cleaned up from 
hazardous waste discharges as a result of a terrorist attack? 
Yes or no?
    Dr. Gilman. Kathy is not the attorney for the agency.
    Mr. Nadler. So you are the attorney?
    Dr. Gilman. And I am not an attorney, either.
    Mr. Nadler. We have been pursuing this question for almost 
2 years now.
    Dr. Gilman. Yes. And I am not an attorney for the agency, 
either. And you may be a trained attorney. And I am happy to 
try and get some response to your question. I am not qualified 
to answer it. I am not sure that Kathy is either.
    Mr. Nadler. Well, let me say, both of you sat here and said 
essentially it was the city's job, they did it--or they did not 
do it, but it was the city's responsibility and they asked you 
for help. At other times people from EPA have testified that 
the city asked you not to help. And we have been maintaining 
for 2 years that it is EPA's responsibility to do it or to 
delegate it to someone, but make sure it gets done under their 
supervision. And essentially you have been saying that is not 
your responsibility.
    We have been saying, and again Acting Administrator Herinko 
testified in his deposition a few months ago that it was. The 
agency should be able to say it is or it is not your 
responsibility.
    Dr. Gilman. But, Congressman, at the time I did say, we 
have taken on that responsibility.
    Mr. Nadler. No, you have not. Well, I want to know is or is 
it not your responsibility to do it? And whether you have taken 
it or not is a separate question. I would say you have not, and 
I will not get into that now.
    If you do not want to answer under oath, etc., without 
getting a lawyer, fine. But I would ask that you supply an 
answer to that question afterwards.
    Dr. Gilman. Sure. Be happy to.
    Mr. Nadler. Thank you.
    Mr. Shays. I would like to say, that these are very fair 
questions, but under no circumstance do I think that our 
witnesses are doing anything but just trying to provide very 
honest and very candid responses. But I also want to say to the 
gentleman that I know this has been a gigantic and legitimate 
concern and answers have not been forthcoming. And it is 
important those answers happen.
    We did not ask the legal side of EPA to be here to even 
deal with that issue, frankly.
    Mr. Nadler. I raised it because Mr. Turner did.
    Mr. Shays. Right.
    Mr. Nadler. Let him supply the authority.
    Mr. Shays. Right. And then there will be, and also I just 
assure the gentleman, he will be given more time. I did 
interrupt.
    Mr. Nadler. Thank you.
    Let me also just make one comment and then go into some 
questions.
    Mr. Turner said that, and quite logically, that it was 
common sense if you smelled the thing and went there that 
people knew that there was something wrong with the air. The 
problem is that starting 2 days after the disaster in the 
person of Ms. Whitman and others, the EPA started assuring 
everybody do not worry, the air is safe to breath. There have 
been reasons for that those assurances were done. I will not 
get into the IG report, but there were a lot of assurances and 
at the very least mixed messages.
    Now, let me ask you, Dr. Gilman, in the clean up that the 
EPA began in May 2002, despite demands from my office, the 
workers who were cleaning up asbestos laden material when the 
testing revealed asbestos, did not wear any protective 
equipment. Why?
    Dr. Gilman. I am not personally familiar with that clean up 
program.
    Mr. Nadler. Ms. Callahan.
    Ms. Callahan. Based upon the data that was collected in the 
clean up of the immediate surroundings of the World Trade 
Center, OSHA provided us with a negative exposure assessment 
that permitted workers not to wear personal protective 
equipment in the clean ups that were being conducted under----
    Mr. Nadler. But you did testing. And if you had--go ahead.
    Ms. Callahan. Under Scope A, which was where there was very 
minimal dust in the apartment.
    In the Scope B clean ups that we characterized where there 
might be substantial dust still there, they would indeed comply 
with wearing personal protective equipment.
    So we worked in conjunction with OSHA on that issue.
    Mr. Nadler. Well, let me say first that Secretary Henshaw's 
letter says that wherever there is any dust you must wear--
where there is any asbestos you must wear protective equipment, 
No. 1.
    No. 2, I would hope that OSHA can supply us with a copy of 
that letter saying they do not have to wear protective in Scope 
A clean ups. And then I would like to square it with Secretary 
Henshaw's prior letter of January 2002.
    And third, it is my information from talking to dozens of 
people, constituents, we never observed a worker ever wearing 
protective equipment in a Scope A or a Scope B clean up. So I 
do not know what evidence you can produce at this point that 
they did.
    Also, would you define ``minimal dust'' for this purpose?
    Ms. Callahan. A light coating of dust, minimal dust.
    Mr. Nadler. A light coating. With a 1-percent asbestos in 
it, perhaps?
    Ms. Callahan. We did not test for asbestos content.
    Mr. Nadler. So was it one----
    Ms. Callahan. We made an--excuse me, if I could finish, 
Congressman, I think it is important to your point.
    Mr. Nadler. OK.
    Ms. Callahan. We made an assumption that all the dust had 
the potential for asbestos from early on. And so, you know, we 
felt we were being consistent. And the negative exposure 
assessment was based on the personal monitoring of workers that 
worked in heavily, heavily contaminated areas. And I think that 
is why OSHA felt that they could give that assurance and permit 
us to proceed.
    Mr. Nadler. So a light coating of dust which might have 2 
or 4 or 5 percent, for all you know, asbestos in it, it is safe 
to have people remove it with no asbestos, and legal for that 
matter, with no protective equipment?
    Ms. Clark. Congressman, if I might join the discussion?
    Mr. Nadler. Yes, please.
    Mr. Shays. Hold it a second. These mics do not turn on 
until a person starts to speak, and then they pick up.
    I want no comments from the audience, please.
    Ms. Clark. As part of the EPA clean up of the residences, 
we were involved in doing 156 safety and health inspections of 
those clean up operations to look at what was happening with 
the workers that were involved. Some of those involved Scope A, 
as I understood it, no visible dust or Scope B where there was 
some visible dust as well as any cleaning of the heating and 
air conditioning systems.
    And as Ms. Callahan indicated, during Scope A they were not 
wearing the protective equipment, the respirators, but they 
were during Scope B and with the HVAC.
    All of our sample results for those 156 clean ups did not 
show any over exposures for asbestos.
    Mr. Nadler. OK.
    Ms. Clark. In fact, as far as air, the majority of them 
were nondetected.
    Mr. Nadler. I have another question. And the yellow light 
is on. Thank you.
    I have two more questions. One should be very quick. It is 
Ms. Porter. You said that we should do a lot more screening. 
What about medical care for people who the screening tells us 
need medical care, do you think the Federal Government should 
get into this in a big way on this?
    Ms. Porter. I think that as you heard, Mount Sinai 
testified 40 percent of the workers are uninsured that have 
gone through their screening program. And in those instances 
there is a need for some bridge funding to enable people----
    Mr. Nadler. Bridge funding?
    Ms. Porter. Some funding to enable people----
    Mr. Nadler. Some sort of funding? Thank you.
    Ms. Clark, if I read your testimony, in fact your testimony 
was that there was low levels of contaminates or safe levels. 
You read that testimony here. ``OSHA's breathing zone examples 
of exposure is well below the agency's permissible exposure 
levels for the majority of chemicals and substances analyzed.'' 
By the way, that is interesting. Does that mean that there were 
dangerous levels of a minority of substances tested?
    Ms. Clark. There were 3 percent of all of the samples that 
we analyzed for all of those substances that I mentioned were 
found to be at or above the permissible exposure level.
    Mr. Nadler. OK. Thank you. Thank you.
    Ms. Clark. Those were, however, within the protection 
factor of the respirator we recommended.
    Mr. Nadler. For any substance? For any substance?
    Ms. Clark. Yes.
    Mr. Nadler. OK.
    Ms. Clark. I can----
    Mr. Nadler. I do not want more details now. Please. Because 
I do have to finish the real point of the question.
    You go on about you tested a lot of things and 95 percent 
were below detection limits for asbestos, etc. And you have out 
all these respirators. And you also said that the ``key to 
success at the World Trade Center site was working in 
partnership.''
    Given this, it was a success; yes, in the fact that no one 
was killed. But how do you regard it as a success, and more to 
the point, given all these low levels of contamination why are 
the majority of workers who worked at the site have lung 
impairments of one sort or another at this point? Why do we 
have what I regard as a catastrophe of hundreds, maybe 
thousands of people who have--not just people caught in the 
cloud but of workers, of people who came and worked on the 
pile, the majority of workers tested I've seen estimates of 
some departments up to 78 percent have long lasting lung 
incapacity problems of one or sort of other? And we have no 
idea, obviously, yet how many are going to come down with 
cancer 20 years from now.
    Given the fact that there were these low levels of 
contaminates and a wonderful job was done giving out 
respirators, why do the majority of workers have very severe 
health problems at this point?
    Ms. Clark. Mr. Nadler, I am a physician so I cannot speak 
to the health outcomes. I can tell you what we did, what we 
found. I can talk about the fact that I had people there 
everyday looking for safety and health issues. I had people 
there around the clock asking employees, begging them, 
sometimes almost coming to blows with them to wear respiratory 
protection. We did hear from the employees that they were 
uncomfortable, that they sometimes interfered with 
communication. Clearly, they did not wear them all the time. 
And that's very unfortunate, and I regret that very much.
    I really feel, though, that on our part we and the other 
safety health professionals did everything we could to get the 
proper respiratory protection on the site and to have it 
available in such a way that the employees understood why they 
should wear it. We provided the risk communication. 
Unfortunately, the risk communication sometimes suggested to 
some of them that because we weren't finding high levels in 
certain areas, that perhaps they did not wear it. I think that 
if you look at, however, certain groups. The ones that were 
doing more of the drilling operations, the ones that were doing 
the welding and cutting where we did have some higher levels, 
up to 5 percent of the samples sometimes over the permissible 
exposure levels, you did find better compliance.
    You also found better compliance from the trained 
construction workers who were more accustomed to wearing 
respiratory protection.
    It was a very, very horrendous situation. Working 12 hours 
a day, fires. It was not a situation where it was very easy.
    Mr. Nadler. Let me just--let me----
    Ms. Clark. I cannot answer, though, why the health 
problems.
    Mr. Nadler. Of course not.
    Let me make a comment, if I may, Mr. Chairman.
    Mr. Shays. Yes.
    Mr. Nadler. I have looked at this for 2 years now. We have 
been doing a lot of work with a lot of people. It is clear to 
me that I fault nobody for lack of wearing respirators or 
getting the respirators, etc., for the first few days, maybe a 
week. Because you had to get in. There might be people alive. 
You got to get in, you do the job and, you know, maybe 
precautions take second place. But after the few days, or the 
week or the first 2 weeks there were people working on that 
pile for months and you have heard in our previous panel, whole 
departments apparently--and it may not be your department's, 
maybe some other departments or the city of New York, or 
somebody--were not getting the proper protection.
    And the second thing I want to say, and I am not going to 
go into detail now. This has been at other hearings. But these 
statistics on this testing of pollutants, they do not jive with 
a lot of the other testing.
    For example, the testing that the University of California, 
Davis under contract with, I think, it was Department of Energy 
when they put the instruments on the roof of 201 Varick Street 
where my office happens to be located, Federal office building, 
a mile north of Ground Zero. They were placed there on October 
2nd and they stayed, I think, until mid-January. They found 
levels of volatile organic compounds, dioxins, mercury; 
everything known to man. They said the worst chemical factory 
they had ever seen, worse than the Kuwaiti oil fires for 
several months afterward. So this was a very, very bad 
pollution. It should not be minimized. And the people who were 
there were subjected to very bad conditions and we're seeing 
the results now from the first panel. And, unfortunately, I 
don't want to characterize a particular department because I do 
not know, but the efforts that were made obviously were not 
satisfactory. And I say that now not because I want to condemn 
anybody, but we have to learn for, God forbid, the next time.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    And let me just say, I thank the questions from all our 
panelist. I know how heartfelt this is, and I know how 
important this.
    And I also want to say to our three primary witnesses and 
also to Ms. Callahan who also responded, that I have been very 
impressed with your testimony. I have been very impressed with 
your sincerity.
    And I said to both my colleagues on both sides, Ms. Clark, 
you did a terrific job. You did. And you were under lots of 
pressure, you have been, but you have done a terrific job.
    We do know that we have our challenges. I am concerned that 
the administration seems so reluctant to release some data from 
EPA and to answer questions, which it makes me feel that they 
have a story that they do not want to tell. And yet when I hear 
the story, I think it is a fairly good story, if not a great 
story.
    I thought, Dr. Gilman, your presentation was very helpful. 
I would have liked to have seen it sooner, and I know it is a 
work in process.
    I totally agree with Mr. Turner. There is not a person who 
did not know that whoever went to Ground Zero was dealing with 
a building in absolute flames, with gases, with every 
conceivable thing burning; plastics, to asbestos to whatever. I 
even know that there was talk about whether people should go 
down, like Members of Congress, to visit. But, you know, we 
wanted to at least thank people for what they were doing.
    And it is probably likely the first week was the most 
horrific and everything else went down in terms of its ultimate 
impact. It is surprising to me there were so many respirators. 
Not surprising to me that people did not use them. Having built 
part of my own home and knowing I should use and knowing I did 
not want to, and forcing myself to. And they are not easy to 
work with, especially when you want to get a lot accomplished.
    But we need questions answered. And I think, Dr. Gilman, 
you know that.
    Ms. Porter, I have a particular concern with how money has 
been allocated. I mean, the first panel described one or two 
instances where they are not feeling they are getting the money 
in due time. And if anything could happen from this hearing, I 
would like to think that we could see some quicker response 
there.
    I would like Mrs. Maloney just outline some issues, and 
maybe you could respond to them.
    Mrs. Maloney. In December 2001, $12 million was released 
for the monitoring and FEMA released another $20 million for 
the registry. And $4 million out of the $90 that we appropriate 
quite a while ago, practically a year ago, was released for 
emergency continuation. But my question, as we heard from the 
fire department earlier and as we heard from Mount Sinai, the 
$25 million that the fire department was allocated and 
earmarked for them has not been released. And the $65 million 
for the monitoring has not been released.
    Now we are told that you are reviewing how you are going to 
release the money. But it seems like we have a system in place 
that seems to be working and it seems that we should make sure 
that it continues. We have people on waiting lists trying to 
get in for monitoring. And there is some concern that there 
will be a gap in the services. And basically since the money 
has been sitting there for well over 6 months, why has it not 
gotten out of Washington and into the hands of the people that 
are providing the services for the sick first responders?
    Ms. Porter. We have been working very aggressively with 
Mount Sinai and the other clinics in New York that are 
providing services to these workers as well as with the fire 
department. And as you've all mentioned, this is a new and 
unique experience that we are going through. There has not been 
a long term medical monitoring program set up like this in the 
country ever before. And we are wanting to ensure that it is as 
comprehensive, that it reaches as many workers as possible, and 
with our partners have been working aggressively to put it 
forward.
    I can guarantee you that there will be no lapse in funding 
between the baseline screening and the long term medical 
monitoring. The funding will be out no later than March 2004.
    Mrs. Maloney. Well, that is good.
    Ms. Porter. And the solicitation for that funding will come 
out on November 10th giving people enough time to write their 
application and put forward their proposal.
    Mrs. Maloney. Also, they testified on the first panel that 
the money is not there for long term screening. They testified 
that medical experts are saying that this should be tracked at 
a minimum for 20 years.
    Ms. Porter. Right.
    Mrs. Maloney. Because many of the health problems may not 
emerge. We are hearing they are merging a year after, 2 years 
after, 5 years. One doctor testified he anticipated cancer 15 
years out.
    And I am told from the first panel that the funding that is 
in place is not enough for the 20 year monitoring. And have you 
looked at how much it will cost for the 20 year monitoring? How 
far does the $90 million go?
    Also, it seems that you want to branch it out to other 
places, which seems to counteract the whole idea of 
coordination and having it one place.
    Ms. Porter. Right. What we want to do is through this 
committee that we will establish is to have clinics working 
from the same protocol, working together so that the data is 
comparable. But we want to make sure that workers have access 
and that workers have choice as to where they want their 
medical care--excuse me. Medical screening program delivered.
    So, that is why we are----
    Mrs. Maloney. But have you done any studies as to how far 
the funding will go for the--for the expected 20 year review 
period?
    Ms. Porter. Yes, ma'am. We believe that in fact the money 
that has been appropriated this far will serve us for the next 
5 to 6 years. And beyond that we will be working in concert 
with our partners to define what needs are subsequent to that.
    We agree that the 20 year followup program is what is 
necessary.
    Mrs. Maloney. Get back to us with how much more you think 
is needed.
    Ms. Porter. Right.
    Mrs. Maloney. Also, you testified that there were 
environmental health studies being done. And what are these 
projects that were listed in your testimony and what are the 
status of them. And, as I said, some of the victims are saying 
they were treated in Brooklyn. That the plume effected health 
in Brooklyn. That the number of people that went to the 
hospitals were up as much as 23 percent. Have you done any 
studies on what happened in the intake in other hospitals as a 
reaction to September 11?
    Ms. Porter. Yes. There have been some studies that have 
been funded with the NIH, and we will be happy to provide you 
the data on when those studies are expected to be completed and 
the results of them.
    Mrs. Maloney. Thank you.
    Mr. Shays. Ms. Porter, I am going to suggest that maybe we 
could get the Members here to meet with you and to just go over 
some of those dollars. Just so we are clear about that as well.
    Ms. Porter. Great.
    Mr. Shays. I think Major Owens had a few more questions, 
and then we are going to kind of close this panel up in a 
second.
    Mr. Owens. Just one or two questions related to the workers 
who were involved in the clean up of the apartment houses and 
the offices adjacent to the World Trade Center.
    You said you made 156 inspections, did I hear correctly, of 
those particular sites?
    Ms. Clark. That was the clean up that EPA did of the 
residential facilities in lower Manhattan from May on.
    We also conducted evaluations of prior. And these were 
enforcement inspections. For areas outside of the 16 acre 
project. That was during the time from, basically October on. 
We started an emphasis program, especially to look at the 
buildings that were most heavily effected around the site where 
there was the greatest level of clean up. So we did----
    Mr. Owens. It was documented that contractors had brought 
in a large number of immigrant workers, undocumented workers. 
There was even a mobile unit set up to encourage those workers 
to be tested. Are you familiar with that? And what was OSHA's 
role in protecting those workers?
    Ms. Clark. I am familiar with the mobile testing van. And, 
actually, we provided some information. At the van we took over 
our poster in both English and Spanish, realizing that there 
were some immigrant, possibly non-English speaking people 
coming through there. And we also provided the sampling result 
summaries that I had talked about that we provided to workers 
onsite. We also provided those to that mobile van as well.
    And we were, again as I indicated, doing inspections 
outside of the project. It took us a little while to come back, 
because as I indicated, we lost our whole office and we were 
having so many involved at the site. But we did start--we 
resumed enforcement inspections overall.
    Mr. Owens. Do you know who those contractors were? You have 
listings of them?
    Ms. Clark. We never received any--do you mean the ones that 
we inspected? Yes.
    Mr. Owens. The ones who were employing the immigrant 
workers?
    Ms. Clark. I do not have any specific names. None were ever 
provided to us in that regard, no.
    Mr. Shays. Is there a way we could find out these names, 
and so on? How would we track that down?
    Ms. Clark. I suppose we could ask the group that had the 
mobile van if they had any names of contractors. We did not 
receive any complaints out of our posting of our information 
there. And we did attempt to try to determine if we could get 
any referrals for inspections. But we did not receive any. But 
we could certainly ask that of the individuals who ran that 
van.
    Mr. Shays. Just to continue. We are interrupting you. If 
the gentleman would yield, Mrs. Maloney has some point.
    Mrs. Maloney. We know that there were five general 
contractors who were assigned to the site, so we could merely 
ask those contractors whether or not they were involved in 
this.
    Ms. Clark. Those five contractors, I am quite familiar 
with. They were the partners in the project.
    Mrs. Maloney. Yes.
    Ms. Clark. I think what Congressman Owens was talking about 
would have been actually was occurring outside of the project.
    Mrs. Maloney. Outside of the project?
    Ms. Clark. That were not contractors working for those 
general contractors.
    Mrs. Maloney. Then the city of New York would have a 
listing of the organization that oversaw that.
    Mr. Shays. But we'll track it down, though. It needs to be 
tracked down. I think that is a good point.
    Mr. Owens. I can assume that there were no--OSHA did not go 
into a nonenforcement mode for those mode and agree that there 
was no enforcement?
    Ms. Clark. That is correct. The only area that was a 
consultative mode was within the 16 acre World Trade Center 
site itself. The recovery project specifically. And it was only 
because that site was still controlled by the FDNY as the site 
commander and eventually the city Department of Design and 
Construction. They were the incident commanders. And so within 
that area we did consultation. Outside we resumed enforcement.
    Mr. Owens. Thank you.
    Mr. Shays. Thank the gentleman.
    Is there anything that any of our witnesses and Dr. Wagner 
and Dr. Williamson. Sometimes I notice that people who say 
nothing ultimately in the end have the most important things to 
say. Not to put pressure on you. But if any of you would like 
to say anything, please feel free.
    So, is there any comment that you would like to make?
    Dr. Gilman. Yes, if I may.
    Mr. Shays. Yes, Dr. Gilman.
    Dr. Gilman. During your remarks you suggested that there 
was data available or data that EPA had that they had not made 
available. I am not aware of anybody asserting that we withheld 
data associated with these monitoring activities.
    Mr. Shays. Yes. I would not want the data, but information 
about specifics. There are questions asked and there do not 
seem to be some answers to them. And we would love those 
answers.
    Dr. Gilman. OK. And I know we are processing some 
information requests for the Congressmen. And I know they are 
working on that right now.
    Mr. Shays. Yes, sir.
    And let me just say, Members of Congress feel very 
protective of a Member who, in his own district or her 
district, needs information. So you would find both Republicans 
and Democrats alike wanting Mr. Nadler to get this information 
and it is information, obviously, that we are all interested 
in.
    I guess my only point was the more I hear the story, the 
more I feel that it is a story that has some answers to. I am 
struck also by the fact that data was available to a lot of 
different agencies and no government agency said to another do 
not share this information.
    I do know this, though. I do know the administration 
shortly after September 11th in general about a lot of things 
was trying to calm people down. And I got in a little bit of a 
dispute with some of them about how I thought they were 
understating the risk of terrorism, overstating the safety of 
flying airplanes and so on, you know, to try to calm people 
down.
    I think you tell the American people the truth, whatever it 
is, and they then want you to do the right thing, whatever that 
may be. And so your point is well taken about the data.
    Dr. Wagner, did you want to say anything?
    Dr. Wagner. Well, only I think a number of the questions 
that were unanswerable today point out the need for high 
quality continuous collection of the best information that we 
can on the effected workers and others as well as the 
importance of the continuing analysis and research so that we 
can understand the nature of the health effects, the best 
treatments and the ways to minimize the adverse outcomes.
    Mr. Shays. Ms. Porter is nodding her head, so you spoke for 
her in that instance.
    Dr. Williamson, any comment?
    Dr. Williamson. Yes. I would like to thank you, Congressman 
Shays, for acknowledging the importance of the registry. I 
would also like to reenforce the fact that we do think that 
this is a unique opportunity for folks to participate in a data 
base that will allow us to track and determine what the health 
impacts have been of the World Trade Center, both long and 
short term.
    I would also like to respond to one question about the 
lessons learned. And one of the things that I would like to 
reenforce is, obviously, the collaborations are critical. But I 
think another thing that we are doing at CDC and ATSDR is 
putting together a mechanism which will help us, God forbid, we 
are ever in a situation as we have been in September to have a 
rapid response registry so that with perhaps a quick funding 
mechanism, along with a rapid response registry we can gather 
some of the important scientific data that Dr. Wagner mentioned 
and yet at the same time get it out in a timely fashion so that 
the funding and the infrastructure is there.
    Mr. Shays. Thank you. Let me thank, obviously, my 
colleagues for their participation in this hearing. And I want 
to also thank both panel one and panel two. You have been an 
excellent panel.
    I want to thank our audience for its cooperation.
    And also to say that it is clear to me that there is more 
to the story that we have to deal with, more issues. It is 
clear that there are residents in the area who have concerns. 
There are workers in the area who have concerns, that these 
concerns need to be addressed.
    We have learned a lot of lessons on September 11th. We know 
we have a lot more lessons to learn.
    I want to also thank the staff of Mount Sinai Medical 
Center for the use of this facility and all their help 
preparing for the hearing.
    I want to thank Congresswoman Maloney and her staff. They 
have been terrific.
    I would also like to thank David Rapallo of the minority 
staff for the full committee. And Larry Halloran, my chief of 
staff for my subcommittee. And let me also recognize the work 
of Kristine McElroy and Bob Briggs of the subcommittee staff. 
Kristine did a tremendous job preparing us for this hearing.
    And finally, thanks to the official reporter, Jennifer 
Rosario. Thank you very much.
    And to all that made this a very important hearing. Thank 
you.
    With that, this hearing is adjourned.
    [Whereupon, at 2:29 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2728.095

[GRAPHIC] [TIFF OMITTED] T2728.096

[GRAPHIC] [TIFF OMITTED] T2728.097

[GRAPHIC] [TIFF OMITTED] T2728.098

[GRAPHIC] [TIFF OMITTED] T2728.099

[GRAPHIC] [TIFF OMITTED] T2728.100

[GRAPHIC] [TIFF OMITTED] T2728.101

[GRAPHIC] [TIFF OMITTED] T2728.102

[GRAPHIC] [TIFF OMITTED] T2728.103

[GRAPHIC] [TIFF OMITTED] T2728.104

[GRAPHIC] [TIFF OMITTED] T2728.105

[GRAPHIC] [TIFF OMITTED] T2728.106

[GRAPHIC] [TIFF OMITTED] T2728.107

[GRAPHIC] [TIFF OMITTED] T2728.108

[GRAPHIC] [TIFF OMITTED] T2728.109

[GRAPHIC] [TIFF OMITTED] T2728.110

[GRAPHIC] [TIFF OMITTED] T2728.111

[GRAPHIC] [TIFF OMITTED] T2728.112

[GRAPHIC] [TIFF OMITTED] T2728.113

[GRAPHIC] [TIFF OMITTED] T2728.114

[GRAPHIC] [TIFF OMITTED] T2728.115

[GRAPHIC] [TIFF OMITTED] T2728.116

[GRAPHIC] [TIFF OMITTED] T2728.117

[GRAPHIC] [TIFF OMITTED] T2728.118

[GRAPHIC] [TIFF OMITTED] T2728.119

[GRAPHIC] [TIFF OMITTED] T2728.120

[GRAPHIC] [TIFF OMITTED] T2728.121

[GRAPHIC] [TIFF OMITTED] T2728.122

[GRAPHIC] [TIFF OMITTED] T2728.123

[GRAPHIC] [TIFF OMITTED] T2728.124

[GRAPHIC] [TIFF OMITTED] T2728.125

[GRAPHIC] [TIFF OMITTED] T2728.126

[GRAPHIC] [TIFF OMITTED] T2728.127

[GRAPHIC] [TIFF OMITTED] T2728.128

[GRAPHIC] [TIFF OMITTED] T2728.129

[GRAPHIC] [TIFF OMITTED] T2728.130

[GRAPHIC] [TIFF OMITTED] T2728.131

[GRAPHIC] [TIFF OMITTED] T2728.132

[GRAPHIC] [TIFF OMITTED] T2728.133


</pre></body></html>
